No. 19A889

In the
Supreme Court of the United States
NATIONAL ASSOCIATION OF BROADCASTERS, ET AL.,
Applicants,
v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.
APPLICATION FOR A FURTHER EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

Eve Klindera Reed
Jeremy J. Broggi
WILEY REIN LLP
1776 K St., N.W.
Washington, D.C. 20036
(202) 719-7000
ereed@wileyrein.com
jbroggi@wileyrein.com
Counsel for Nexstar
Broadcasting, Inc.

Kevin F. King
Andrew Soukup
Rafael Reyneri
COVINGTON &
BURLING LLP
850 10th St., N.W.
Washington, D.C. 20001
(202) 662-6000
kking@cov.com
asoukup@cov.com
rreyneri@cov.com
Counsel for News Media
Alliance

Helgi C. Walker
Counsel of Record
Jacob T. Spencer
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 955-8500
hwalker@gibsondunn.com
jspencer@gibsondunn.com
Counsel for National Association
of Broadcasters

(additional counsel listed on next page)

David D. Oxenford
Wilkinson Barker Knauer, LLP
1800 M Street, N.W.
Suite 800N
Washington, D.C. 20036
(202) 783-4141
doxenford@wbklaw.com
Counsel for Connoisseur Media LLC

Jeetander T. Dulani
Pillsbury Winthrop Shaw Pittman LLP
1200 17th St., N.W.
Washington, D.C. 20036
(202) 663-8000
jeetander.dulani@pillsburylaw.com
Counsel for Sinclair Broadcast Group
Inc.

Kenneth E. Satten
Craig E. Gilmore
Wilkinson Barker Knauer, LLP
1800 M Street, N.W.
Suite 800N
Washington, D.C. 20036
(202) 783-4141
ksatten@wbklaw.com
cgilmore@wbklaw.com

Sally A. Buckman
Paul A. Cicelski
Lerman Senter PLLC
2001 L St., N.W.
Suite 400
Washington, D.C. 20036
(202) 429-8970
sbuckman@lermansenter.com
pcicelski@lermansenter.com
Counsel for News Corporation

Counsel for Bonneville International
Corporation and The Scranton Times
L.P.

APPLICATION FOR A FURTHER EXTENSION OF TIME
TO THE HONORABLE SAMUEL A. ALITO, JR., ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT:
Pursuant to Rules 13.5, 22, and 30.3 of this Court, Applicants Industry
Intervenors1 respectfully request a further 30-day extension of time—to and
including Saturday, April 18, 2020—within which to file a petition for a writ of
certiorari to the United States Court of Appeals for the Third Circuit.

Unless

extended, the deadline to file a petition for a writ of certiorari is March 19, 2020.
1.

The Third Circuit entered its judgment on September 23, 2019. Its

opinion, captioned Prometheus Radio Project v. FCC, 939 F.3d 567 (3d. Cir. 2019), is
attached as Exhibit A.

The Third Circuit denied Applicants’ petition for panel

rehearing and rehearing en banc on November 20, 2019. The order denying rehearing
is unreported and a court-filed copy is attached as Exhibit B. On February 12, 2020,
Justice Alito extended the time in which to file a petition for certiorari to and
including March 19, 2020. This application is timely filed. See S. Ct. Rule 30.2. This
Court’s jurisdiction will be invoked under 28 U.S.C. § 1254(1).
2.

This case presents important and recurring questions involving (1) the

interpretation of Section 202(h) of the Telecommunications Act of 1996, a statute
directing the FCC to review its rules restricting ownership of television stations, radio
stations, and newspapers every four years and to repeal or modify any regulation that

1

The Industry Intervenors are identified in the Corporate Disclosure Statement
appended to this Application.
1

is no longer in the public interest “as the result of competition,” Pub. L. No. 104-104,
§ 202(h), 110 Stat. 56, 111–12 (1996); see Pub. L. No. 108-199, § 629, 118 Stat. 3, 99100 (2004), and (2) the appropriate remedy under the Administrative Procedure Act
where, as here, a court of appeals identifies an isolated, supposed flaw in the agency’s
reasoning.
3.

This case arises from a series of FCC orders addressing media ownership

rules.2 In the Reconsideration Order, the FCC repealed or modified many of its
ownership rules after concluding that they no longer served the public interest. In
vacating the Reconsideration Order, the Third Circuit misinterpreted Section 202(h).
It replaced Congress’s command to focus on competition with non-statutory policy
considerations about media ownership diversity. This error, if left to stand, will
continue to prevent the FCC from making necessary changes to its media ownership
rules and will distort every future quadrennial review of those rules. The error is
compounded because the same panel has retained jurisdiction over the statutorily
mandated periodic review for more than 15 years—and continues to assert
jurisdiction—blocking any other court of appeals or any other panel of the Third
Circuit from considering the question and properly interpreting Section 202(h).

2

The three orders at issue in this case are printed in the FCC Record. See In re 2014
Quadrennial Regulatory Review, Second Report and Order, 31 FCC Rcd. 9864 (2016)
(“Second R&O”), In re 2014 Quadrennial Regulatory Review, Order on
Reconsideration and Notice of Proposed Rulemaking, 32 FCC Rcd. 9802 (2017)
(“Reconsideration Order”), and In re Rules & Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, Report and Order, 33 FCC Rcd.
7911 (2018) (“Incubator Order”).
2

4.

This case involves an additional issue meriting this Court’s review. The

Third Circuit vacated multiple FCC orders based on a supposed flaw in one of those
orders, even though the court expressly acknowledged that the FCC could reach the
exact same conclusions after further consideration. The Third Circuit’s wholesale
vacatur conflicts with remedial approaches taken by seven other circuits, all of which
remand without vacatur where, as here, an agency could correct any flaws in its
reasoning while reaching the same ultimate result. See, e.g., Allied-Signal, Inc. v.
U.S. Nuclear Regulatory Comm’n, 988 F.2d 146, 150 (D.C. Cir. 1993). The overbroad
relief ordered by the Third Circuit was inconsistent with the supposed flaw the court
identified and poses serious implications for the effective and efficient use of
legislative, executive, and judicial resources.
5.

This case is ideal for resolving the questions that will be presented. The

same Third Circuit panel has reviewed the FCC’s efforts to comply with Section
202(h) four times over 15 years. See Ex. A; Prometheus Radio Project v. FCC, 824
F.3d 33 (3d Cir. 2016); Prometheus Radio Project v. FCC, 652 F.3d 431 (3d Cir. 2011);
Prometheus Radio Project v. FCC, 373 F.3d 372 (3d Cir. 2004). Judges Ambro and
Fuentes have consistently remanded the FCC’s decision for failing to promote
ownership diversity to their satisfaction, and Judge Scirica has consistently
dissented.

By continuing to retain jurisdiction, the panel has not only stymied

necessary regulatory reform, but has prevented any percolation on the proper
interpretation of Section 202(h).

The Third Circuit’s misinterpretation thus

3

continues to distort the FCC’s quadrennial review process and will continue to do so
unless corrected by this Court.
6.

A further 30-day extension to file a petition for a writ of certiorari is

necessary to allow counsel for the Industry Intervenors to prepare and file a petition
presenting these important questions to this Court. In addition, counsel for Industry
Intervenors has conferred with counsel for the FCC and understands that the FCC
will also be filing a request for a further 30-day extension of time to file a petition for
certiorari. Judicial efficiency counsels in favor of the FCC’s and Industry Intervenors’
petitions being submitted to this Court and considered concurrently.

Industry

Intervenors are not aware of any party that would be prejudiced by the requested
extension.
Accordingly, good reason exists for this application and Industry Intervenors
respectfully request a further 30-day extension of time within which to file a petition
for a writ of certiorari, to and including Saturday, April 18, 2020.

4

Dated: March 9, 2020
Eve Klindera Reed
Jeremy J. Broggi
WILEY REIN LLP
1776 K St., N.W.
Washington, D.C. 20036
(202) 719-7000
ereed@wileyrein.com
jbroggi@wileyrein.com
Counsel for Nexstar
Broadcasting, Inc.

Respectfully submitted,
Kevin F. King
Andrew Soukup
Rafael Reyneri
COVINGTON &
BURLING LLP
850 10th St., N.W.
Washington, D.C. 20001
(202) 662-6000
kking@cov.com
asoukup@cov.com
rreyneri@cov.com
Counsel for News Media
Alliance

David D. Oxenford
Wilkinson Barker Knauer, LLP
1800 M Street, N.W.
Suite 800N
Washington, D.C. 20036
(202) 783-4141
doxenford@wbklaw.com

/s/ Helgi C. Walker
Helgi C. Walker
Counsel of Record
Jacob T. Spencer
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 955-8500
hwalker@gibsondunn.com
jspencer@gibsondunn.com
Counsel for National Association
of Broadcasters

Jeetander T. Dulani
Pillsbury Winthrop Shaw Pittman LLP
1200 17th St., N.W.
Washington, D.C. 20036
(202) 663-8000
jeetander.dulani@pillsburylaw.com

Counsel for Connoisseur Media LLC

Counsel for Sinclair Broadcast Group
Inc.

Kenneth E. Satten
Craig E. Gilmore
Wilkinson Barker Knauer, LLP
1800 M Street, N.W.
Suite 800N
Washington, D.C. 20036
(202) 783-4141
ksatten@wbklaw.com
cgilmore@wbklaw.com

Sally A. Buckman
Paul A. Cicelski
Lerman Senter PLLC
2001 L St., N.W.
Suite 400
Washington, D.C. 20036
(202) 429-8970
sbuckman@lermansenter.com
pcicelski@lermansenter.com

Counsel for Bonneville International
Corporation and The Scranton Times
L.P.

Counsel for News Corporation

5

RULE 29.6 CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6, Intervenors make the following disclosures.
Bonneville
corporation.

International

Corporation

is

a

privately

held

Utah

Bonneville’s sole shareholder is Deseret Management Corporation,

which, in turn, is privately held by the DMC Reserve Trust.

There are three

individual trustees, who are appointed by The First Presidency of The Church of
Jesus Christ of Latter-day Saints.
Connoisseur Media LLC is a limited liability company organized in the
State of Delaware. Connoisseur is owned by Connoisseur Media Holdings, LLC,
which is in turn controlled by CM Broadcast Management, LLC.
National Association of Broadcasters is a nonprofit, incorporated
association of radio and television stations and broadcast networks. It has no parent
company, and has not issued any shares or debt securities to the public; thus no
publicly held company owns ten percent or more of its stock.
News Corporation is a publicly held company comprising business across a
range of media, including news and information services, book publishing, and digital
real estate services.

No publicly held company owns 10% or more of News

Corporation’s stock.
News Media Alliance is a not-for-profit trade association representing nearly
2,000 companies engaged in all aspects of the news media industry in the United
States and Canada. Alliance members account for nearly 90 percent of the daily
newspaper circulation in the United States, as well as a range of online, mobile and

non-daily publications. The News Media Alliance was known as the Newspaper
Association of America until September 2016. The News Media Alliance has no
parent companies, and no publicly held company has a ten percent or greater
ownership interest in the News Media Alliance.
Nexstar Broadcasting, Inc. is a media corporation that owns and operates
commercial broadcast television stations. Nexstar is wholly owned by Nexstar Media
Group, Inc., which is a publicly held corporation. No publicly held corporation has a
ten percent or greater ownership interest in the stock of Nexstar Media Group, Inc.
The Scranton Times L.P. is controlled by its general partner, The Times
Partner, L.L.C., a Pennsylvania limited liability company, which is in turn privately
held and controlled by its four individual members.
Sinclair Broadcast Group Inc. is a media corporation that owns, operates,
and provides programming and sales services to television stations in various cities
across the country. Sinclair has no parent company and no publicly traded company
owns more than ten percent of Sinclair’s stock.

EXHIBIT A

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

PROMETHEUS RADIO PROJECT
*National Association of Broadcasters **Cox Media Group
LLC, Intervenors
v.
FEDERAL COMMUNICATIONS
COMMISSION; United
States of America

567

Multicultural Media, Telecom and Internet Council, Inc.; National Association of Black-owned Broadcasters, Petitioners (No. 18-1670, 18-3335)
Free Press; Office of Communication,
Inc. of the United Church of Christ;
National Association of Broadcast
Employees and Technicians-Communications Workers of America; Common Cause, Petitioners (No. 18-1671)
v.

Prometheus Radio Project and Media
Mobilizing Project, Petitioners
in No. 17-1107
Multicultural Media, Telecom and Internet Counsel and National Association
of Black Owned Broadcasters, Inc.,
Petitioners in 17-1109
The Scranton Times, L.P.,
Petitioners in 17-1110
Bonneville International Corporation,
Petitioners in 17-1111
*Prometheus Radio Project, Media Mobilizing Project, Benton Foundation,
Common Cause, Media Alliance, Media Council Hawaii, National Association of Broadcasters Employees and
Technicians Communications Workers of America, National Organization
for Woman Foundation, Office of
Communication of the United Church
of Christ Inc., Intervenors
Prometheus Radio Project; Media
Mobilizing Project, Petitioners
(No. 18-1092, 18-2943)
Independent Television Group,
Petitioners (No. 18-1669)
* (Pursuant to the Clerk’s Order date 1/18/17)

Federal Communications Commission;
United States of America
Nos. 17-1107, 17-1109, 17-1110, 17-1111
Nos. 18-1092, 18-1669, 18-1670, 181671, 18-2943 & 18-3335
United States Court of Appeals,
Third Circuit.
Argued June 11, 2019
(Opinion filed September 23, 2019)
Background: Broadcasters and advocacy
groups filed separate petitions for review
of Federal Communications Commission’s
(FCC’s) diversity initiatives and broadcast
media ownership rules under Telecommunications Act of 1996. The cases were
transferred and consolidated.
Holdings: The Court of Appeals, Ambro,
Circuit Judge, held that:
(1) as matter of first impression, petitioners properly submitted declarations to
establish their standing along with
their reply briefs, rather than establishing their standing in their opening
brief;
(2) petitioners sufficiently alleged injury in
fact, as required to establish their
standing to challenge FCC’s diversity
initiatives and broadcast media ownership rules;
** (Pursuant to the Clerk’s Order dated 2/7/17)

568

939 FEDERAL REPORTER, 3d SERIES

(3) FCC’s decision to retain its ‘‘top-four’’
local television rule, while rescinding
‘‘eight voices’’ rule, was not arbitrary
and capricious;
(4) FCC provided adequate notice of its
definition of comparable markets for
radio stations;
(5) FCC’s definition of comparable markets for radio stations was not arbitrary and capricious;
(6) FCC failed to adequately consider effect its new rules would have on ownership of broadcast media by women
and racial minorities; and
(7) FCC did not unreasonably delay action
on petitioners’ proposal to extend cable
procurement rules to broadcast media.
Ordered accordingly.
Scirica, Senior Circuit Judge, filed opinion
concurring in part and dissenting in part.
1. Administrative Law and Procedure
O1743, 1749
The scope of review under the Administrative Procedure Act’s (APA) arbitrary
and capricious standard is narrow and a
court is not to substitute its judgment for
that of the agency. 5 U.S.C.A. § 706(2).
2. Administrative Law and Procedure
O1743
Despite the deference owed to agency
action under the Administrative Procedure
Act’s (APA) arbitrary and capricious standard of review, courts require the agency
to examine the relevant data and articulate
a satisfactory explanation for its action,
including a rational connection between
the facts found and the choice made. 5
U.S.C.A. § 706(2).
3. Telecommunications O1100
Term ‘‘necessary,’’ as used in Telecommunications Act provision requiring
Federal Communications Commission

(FCC) to periodically review broadcast
ownership rules to determine if they are
‘‘necessary in the public interest as the
result of competition,’’ means ‘‘useful,’’
‘‘convenient,’’ or ‘‘helpful.’’ Telecommunications Act of 1996, § 202(h), 47 U.S.C.A.
§ 303 note.
See publication Words and Phrases
for other judicial constructions and
definitions.

4. Administrative Law and Procedure
O2011
Under the section of the Administrative Procedure Act (APA) allowing a court
to compel agency action unlawfully withheld or unreasonably delayed, the polestar
is reasonableness. 5 U.S.C.A. § 706(1).
5. Administrative Law and Procedure
O2011
Under the section of the Administrative Procedure Act (APA) allowing a court
to compel agency action unlawfully withheld or unreasonably delayed, courts balance the importance of the subject matter
being regulated with the regulating agency’s need to discharge all of its statutory
responsibilities under a reasonable timetable. 5 U.S.C.A. § 706(1).
6. Administrative Law and Procedure
O2011
For purposes of the Administrative
Procedure Act (APA) section allowing a
court to compel agency action unlawfully
withheld or unreasonably delayed, the
court should measure unreasonable delay
by the following factors: (1) the length of
time that has elapsed since the agency
came under a duty to act; (2) the context of
the statute authorizing the agency’s action;
(3) the consequences of the agency’s delay;
and (4) any plea of administrative error,
administrative inconvenience, practical difficulty in carrying out a legislative mandate, or need to prioritize in the face of
limited resources. 5 U.S.C.A. § 706(1).

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

7. Federal Civil Procedure O103.2, 103.3
To have standing to sue in federal
court, a plaintiff must have: (1) an injury in
fact, meaning an invasion of a legally protected interest which is concrete and particularized and actual or imminent, not
conjectural or hypothetical; (2) an injury
fairly traceable to the challenged action of
the defendant, and (3) an injury likely, as
opposed to merely speculative, that will be
redressed by a favorable decision. U.S.
Const. art. 3, § 2, cl. 1.
8. Telecommunications O1141
Broadcasters and advocacy groups
properly submitted declarations to establish their standing along with their reply
briefs, rather than establishing their
standing in their opening brief, on petitions for review of Federal Communications Commission’s (FCC’s) diversity initiatives and broadcast media ownership
rules under Telecommunications Act of
1996, where same parties had been litigating before the Court of Appeals for a
decade, such that it was reasonable for
petitioners to assume that their qualification to continue in the case was readily
apparent, and issue of their standing was
raised for first time in intervenors’ merits
brief. Telecommunications Act of 1996,
§ 202(h), 47 U.S.C.A. § 303 note.
9. Administrative Law and Procedure
O1631(2)
Petitioners challenging agency action
may supplement the administrative record
for the purpose of establishing Article III
standing, even though judicial review of
agency action is usually limited to the administrative record. U.S. Const. art. 3,
§ 2, cl. 1.
10. Administrative Law and Procedure
O1672
Article III standing requirements do
not apply to agency proceedings. U.S.
Const. art. 3, § 2, cl. 1.

569

11. Administrative Law and Procedure
O1681
Parties challenging agency action may
submit materials to establish standing at
any time in the litigation.
12. Administrative Law and Procedure
O1681
In general, materials to establish
standing to challenge agency action should
be submitted promptly once standing is
called into question.
13. Telecommunications O1139
Broadcasters and advocacy groups
sufficiently alleged injury in fact, as required to establish their standing to challenge Federal Communications Commission’s (FCC’s) diversity initiatives and
broadcast media ownership rules under
Telecommunications Act of 1996, where
consolidation within industry, pursuant to
new rules, would harm broadcasters, and
even though any future mergers would
require FCC approval, new rules would
result in approval of mergers that previously would have been rejected. U.S.
Const. art. 3, § 2, cl. 1; Telecommunications Act of 1996, § 202(h), 47 U.S.C.A.
§ 303 note.
14. Telecommunications O1139
Broadcasters and advocacy groups
did not lack standing to challenge Federal Communications Commission’s (FCC’s)
diversity initiatives and broadcast media
ownership rules under Telecommunications Act provision requiring FCC to periodically review ownership rules to determine if they were necessary in public
interest as result of competition, although
their objections to rule changes pertained
to ownership diversity and not to Act’s
purpose of promoting competition, where
goal of provision was not limited to promoting competition, and there was no re-

570

939 FEDERAL REPORTER, 3d SERIES

quirement for Article III standing that
harm alleged be closely tied to their legal
argument. U.S. Const. art. 3, § 2, cl. 1;
Telecommunications Act of 1996, § 202(h),
47 U.S.C.A. § 303 note.
15. Telecommunications O1100
Review under the Telecommunications
Act provision requiring Federal Communications Commission (FCC) to periodically
review broadcast ownership rules to determine if they are ‘‘necessary in the public
interest as the result of competition’’ is
intended to determine whether each of the
ownership rules serves the public interest,
broadly conceived, in light of ongoing competitive developments within the industry.
Telecommunications Act of 1996, § 202(h),
47 U.S.C.A. § 303 note.
16. Federal Civil Procedure O103.2
There is no requirement that the
harm alleged be closely tied to a challenger’s legal argument in order to have Article III standing. U.S. Const. art. 3, § 2, cl.
1.
17. Telecommunications O1100
Federal Communication Commission’s
(FCC) decision to retain its ‘‘top-four’’ local television rule, prohibiting merger of
any two of top four stations in a given
market, while rescinding ‘‘eight voices’’
rule, prohibiting mergers that would leave
fewer than eight independently-owned stations in the market, was not arbitrary and
capricious under the Administrative Procedure Act (APA), where FCC’s decision
that mergers between largest stations in a
market posed unique threat to competition
was supported by record evidence, and
Telecommunications Act provision requiring FCC to periodically review broadcast
ownership rules to determine if they were
necessary in public interest as result of
competition did not require FCC to replace its existing rules. 5 U.S.C.A.

§ 706(2); Telecommunications Act of 1996,
§ 202(h), 47 U.S.C.A. § 303 note.
18. Telecommunications O1129
Federal Communication Commission
(FCC) provided adequate notice of its definition of comparable markets for radio stations, in order establishing incubator program that used waiver of rules governing
local radio ownership as reward to induce
participation by established broadcasters,
where, after asking whether waiver should
be applicable in any similarly sized market,
FCC’s notice of proposed rulemaking
asked how it should determine which markets were similarly sized, indicating that it
was considering range of different ways to
measure market size.
19. Administrative Law and Procedure
O1197
The adequacy of an agency’s notice of
proposed rulemaking must be tested by
determining whether it would fairly apprise interested persons of the subjects
and issues before the agency.
20. Administrative Law and Procedure
O1869(2)
Courts will consider the behavior of
commenters in assessing whether an agency’s notice of proposed rulemaking was
adequate.
21. Telecommunications O1100
Federal Communication Commission’s
(FCC) definition of comparable markets
for radio stations, in order establishing
incubator program that used waiver of
rules governing local radio ownership as
reward to induce participation by established broadcasters, was not arbitrary and
capricious under the Administrative Procedure Act (APA), where FCC considered
potential that its definition would create
perverse incentive for established broadcasters to incubate in markets with low
populations but many radio stations and

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

then use their waivers in ‘‘comparable’’
markets with much greater populations,
and it reasonably determined that such
potential was not overly frightening. 5
U.S.C.A. § 706(2).
22. Telecommunications O1132
Federal Communication Commission
(FCC) failed to adequately consider effect
its new rules would have on ownership of
broadcast media by women and racial minorities, in reviewing its diversity initiatives and broadcast media ownership rules
under Telecommunications Act of 1996,
and, thus, its new rules were arbitrary and
capricious under the Administrative Procedure Act (APA); where FCC’s conclusion
as to female ownership was not based on
any record evidence, and its conclusion as
to ownership by racial minorities was
based on substantially incomplete statistical analysis and reasoned explanation it
gave rested on faulty and insubstantial
data. 5 U.S.C.A. § 706(2); Telecommunications Act of 1996, § 202(h), 47 U.S.C.A.
§ 303 note.
23. Administrative Law and Procedure
O1743
Courts will find agency action arbitrary and capricious under the Administrative Procedure Act (APA) when the agency
entirely fails to consider an important aspect of the problem. 5 U.S.C.A. § 706(2).

571

on minority broadcasters’ advocacy groups’
proposal to extend cable procurement
rules to broadcast media, in reviewing its
diversity initiatives and broadcast media
ownership rules under Telecommunications Act of 1996, where record did not
support adopting proposal, largely because
commenters did not offer any substantial
supporting materials for it, and FCC’s
three-year delay was evidently to keep
proposal alive, rather than rejecting it outright for lack of support. 5 U.S.C.A.
§ 706(1); Telecommunications Act of 1996,
§ 202(h), 47 U.S.C.A. § 303 note; 47 C.F.R.
§ 76.75(e).
On Petition for Review of An Order of
the Federal Communications Commission
(FCC Nos. FCC-1: FCC-16-107; FCC-17156; FCC-18-114)
Angela J. Campbell, Andrew J.
Schwartzman, James T. Graves, Institute
for Public Representation, Georgetown
Law, 600 New Jersey Avenue, N.W., Suite
312, Washington, DC 20001, Counsel for
Petitioners Prometheus Radio Project,
Media Mobilizing Project, Counsel for Intervenor Respondents Benton Foundation,
National Association of Broadcast Employees and Technicians Communication Workers of America, National Organization for
Women Foundation, Office of Communication Inc. of the Church of Christ,

24. Administrative Law and Procedure
O1206
With respect to rulemaking, the Administrative Procedure Act’s (APA) arbitrary and capricious standard imposes no
general obligation on agencies to produce
empirical evidence; rather, it only requires
agencies to justify their rules with a reasoned explanation. 5 U.S.C.A. § 706(2).

Cheryl A. Leanza (Argued), Best Best &
Krieger, 2000 Pennsylvania Avenue, Suite
5300, Washington, DC 20006, Counsel for
Petitioners Prometheus Radio Project,
Media Mobilizing Project, Office of Communication Inc. of the United Church of
Christ, National Association of Broadcast
Employees and Technicians Communications Workers of America, Common Cause

25. Telecommunications O1132
Federal Communication Commission
(FCC) did not unreasonably delay action

Dennis Lane (Argued), David D’Alessandro, Stinson Leonard Street, 1775
Pennsylvania Avenue, N.W., Suite 800,

572

939 FEDERAL REPORTER, 3d SERIES

Washington, DC 20006, Counsel for Petitioner Multicultural Media Telecom and
Internet Council National Association of
Black Owned Broadcasters, Inc.
Craig E. Gilmore, Kenneth E. Satten,
Wilkinson Barker Knauer, 1800 M Street,
N.W., Suite 800N, Washington, DC 20036,
Counsel for Petitioners Scranton Times
LP, Bonneville International Corp.
Jack N. Goodman (Argued), Law Offices
of Jack N. Goodman, 1200 New Hampshire
Avenue, N.W., Suite 600, Washington, DC
20036, Counsel for Petitioner Independent
Television Group
Jessica J. Gonzalez, Free Press, 1025
Connecticut Avenue, N.W., Suite 1110,
Washington, DC 20036, Counsel for Petitioner Free Press
Thomas M. Johnson, Jr., General Counsel, David M. Gossett, Deputy General
Counsel, Jacob M. Lewis (Argued), Associate General Counsel, James M. Carr, Matthew J. Dunne (Argued), William Scher,
Richard K. Welch, Federal Communications Commission, 445 12th Street, S.W.,
Washington, DC 20554, Counsel for Respondent Federal Communications Commission
Makan Delrahim, Assistant Attorney
General, Michael F. Murray, Deputy Assistant Attorney General, Nickolai Gilford
Levin, Robert B. Nicholson, Robert J.
Wiggers, United States Department of
Justice, Antitrust Division/Appellate Section, 950 Pennsylvania Avenue, N.W.,
Washington, DC 20004, Counsel for Respondent United States of America
Helgi C. Walker (Argued), Andrew G. I.
Kilberg, Gibson Dunn & Crutcher, 1050
Connecticut Avenue, N.W., Washington,
DC 20036, Counsel for Intervenor Petitioner/Respondent National Association of
Broadcasters
Yosef Getachew, Common Cause, 805
15th Street, N.W., Suite 800, Washington,

DC 20005, Counsel for Intervenor Respondent/Petitioner Common Cause
David E. Mills, Cooley, 1299 Pennsylvania Avenue, N.W., Suite 700, Washington,
DC 20004, Counsel for Intervenor Petitioner Cox Media Group LLC
Kevin F. King, Rafael Reyneri, Andrew
Soukup, Covington & Burling, 850 10th
Street, N.W., One City Center, Washington, DC 20001, Counsel for Intervenor Respondent Fox Corp.
David D. Oxenford, Wilkinson Barker
Knauer, 1800 M Street, N.W., Suite 800N,
Washington, DC 20036, Counsel for Intervenor Respondent Connoisseur Media
LLC
Paul A. Cicelski, S. Jenell Trigg, Lerman Senter, 2001 L Street, N.W., Suite
400, Washington, DC 20036, Counsel for
Intervenor Respondent New Corp.
Eve Klindera, Reed Jeremy J. Broggi,
Wiley Rein, 1776 K Street, N.W., Washington, DC 20006, Counsel for Intervenor
Respondent Nextar Broadcasting Inc.
Jeetander T. Dulani, Pillsbury Winthrop
Shaw Pittman, 1200 17th Street, N.W.,
Washington, DC 20036, Counsel for Intervenor Respondent Sinclair Broadcast
Group Inc.
Before: AMBRO, SCIRICA, and
FUENTES, Circuit Judges
OPINION OF THE COURT
AMBRO, Circuit Judge
Here we are again. After our last encounter with the periodic review by the
Federal Communications Commission (the
‘‘FCC’’ or the ‘‘Commission’’) of its broadcast ownership rules and diversity initiatives, the Commission has taken a series of
actions that, cumulatively, have substantially changed its approach to regulation of
broadcast media ownership. First, it issued

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

an order that retained almost all of its
existing rules in their current form, effectively abandoning its long-running efforts
to change those rules going back to the
first round of this litigation. Then it
changed course, granting petitions for rehearing and repealing or otherwise scaling
back most of those same rules. It also
created a new ‘‘incubator’’ program designed to help new entrants into the
broadcast industry. The Commission, in
short, has been busy. Its actions unsurprisingly aroused opposition from many of
the same groups that have battled it over
the past fifteen years, and that opposition
has brought the parties back to us.
One of these petitioners argues that the
FCC did not go far enough, and that the
same logic by which it repealed the socalled ‘‘eight voices’’ test of the local television ownership rule (which forbade mergers that would leave fewer than eight independently-owned stations in the market)
should also have led it to abolish the ‘‘topfour’’ restriction in the same rule (which
forbids mergers among two or more of the
four largest stations in a market). We disagree; this was a reasonable exercise of
the Commission’s policy-making discretion,
as we held in the first round of this litigation.
Another group of petitioners argues that
the Commission’s new incubator program
is badly designed, as its definition of ‘‘comparable markets’’ for the reward waivers
was unlawfully adopted and would create
perverse incentives. It also argues that the
Commission has unreasonably failed to act
on a proposal to extend the so-called ‘‘cable procurement rules,’’ which promote diversity in the cable television industry, to
broadcast media. We disagree: the ‘‘comparable markets’’ definition for the incubator program was also a reasonable exercise
of discretion, and the FCC’s failure to act

573

on the procurement rules proposal is not
unreasonable so far.
We do, however, agree with the last
group of petitioners, who argue that the
Commission did not adequately consider
the effect its sweeping rule changes will
have on ownership of broadcast media by
women and racial minorities. Although it
did ostensibly comply with our prior requirement to consider this issue on remand, its analysis is so insubstantial that
we cannot say it provides a reliable foundation for the Commission’s conclusions.
Accordingly, we vacate and remand the
bulk of its actions in this area over the last
three years. In doing so, we decline to
grant the requested extraordinary relief of
appointing a special master to oversee the
FCC’s work on remand.
I.

Background

To avoid sounding like a broken record,
we recount only in brief the history of this
case up through our most recent decision.
The full account of the entire saga can be
found in our earlier opinions. See Prometheus Radio Project v. FCC, 373 F.3d 372,
382–89 (3d Cir. 2004) (‘‘Prometheus I’’);
Prometheus Radio Project v. FCC, 652
F.3d 431, 438–44 (3d Cir. 2011) (‘‘Prometheus II’’); and Prometheus Radio Project
v. FCC, 824 F.3d 33, 37–39 (3d Cir. 2016)
(‘‘Prometheus III’’).
Under the Communications Act of 1934,
47 U.S.C. § 151 et seq., Pub. L. No. 73-416,
48 Stat. 1064 (1934), the Federal Communications Commission has long maintained
a collection of rules governing ownership
of broadcast media. By preventing any one
entity from owning more than a certain
amount of broadcast media, these rules
limit consolidation and promote a number
of interests, commonly stated as ‘‘competition, diversity, and localism.’’ See, e.g., Report and Order and Notice of Proposed
Rulemaking—2002 Biennial Regulatory

574

939 FEDERAL REPORTER, 3d SERIES

Review, 18 F.C.C.R. 13620 ¶ 8 (July 2,
2003). By 1996, however, there was growing sentiment that these rules were overly
restrictive, and so Congress passed the
Telecommunications Act. Pub. L. No. 104–
104, 110 Stat. 56 (1996). Section 202(h) of
that Act requires the Commission to review the broadcast ownership rules on a
regular basis—initially biennial, later
amended to quadrennial, see Pub. L. No.
108–199, § 629, 118 Stat. 3, 99–100 (2004)—
to ‘‘determine whether any of such rules
are necessary in the public interest as the
result of competition.’’ Telecommunications
Act, § 202(h). The Commission ‘‘shall repeal or modify any regulation it determines to be no longer in the public interest.’’ Id.
Thrice before we have passed on the
Commission’s performance of its duties under § 202(h), or the lack thereof. In Prometheus I we reviewed the results of the
2002 quadrennial review cycle. Then in
Prometheus II we reviewed the results of
the 2006 review cycle, which included the
FCC’s actions on remand from Prometheus I, as well as a separate order adopting various policies designed to promote
broadcast media ownership by women and
racial minorities.
After Prometheus II the Commission
failed to complete its 2010 review cycle
prior to the start of the 2014 cycle, and so
in Prometheus III we reviewed not final
agency action pursuant to § 202(h) but
rather, for the most part, agency inaction.
Although we found the FCC had unreasonably delayed action on the 2010 and 2014
review cycles, we declined to vacate the
broadcast ownership rules in their entirety, but noted such a drastic remedy could
become appropriate in the future if the
Commission continued dragging its feet.
Id., 824 F.3d at 53–54. Relatedly, we remanded a newly adopted rule governing
the treatment of joint sales agreements for

purposes of the television local ownership
rule, reasoning that the FCC could not
have a valid basis for promulgating such a
rule without first having determined, as
required by § 202(h), that the local ownership rule itself should remain in place. Id.
at 58–60.
We also held that the Commission had
unreasonably delayed a determination on
the definition of ‘‘eligible entities.’’ These
are given certain preferences under the
ownership rules, see id. at 41, and the
purpose of these preferences was to encourage ownership by women and minorities. The definition, however, was drawn
from the Small Business Administration’s
definition of small businesses, and focused
solely on a company’s revenues. In Prometheus I we had suggested that, on remand,
the FCC should consider adopting a different definition based on the criteria for
‘‘socially and economically disadvantaged
businesses’’ (‘‘SDBs’’). See 373 F.3d at 428
n.70; see also 13 C.F.R. § 124.103 (defining
socially disadvantaged businesses). The
Commission declined to adopt an SDB definition, and in Prometheus II we held that
the revenue-based definition was arbitrary
and capricious because there was no evidence it would advance the goals of increasing ownership by women and minorities. 652 F.3d at 469–71.
But the Commission had not reached a
determination one way or the other by
Prometheus III. Instead it had suggested—in various documents issued after Prometheus II, none of which constituted final
agency action on the matter—that it would
reject a SDB definition, or the similar
‘‘overcoming disadvantage preference’’
(‘‘ODP’’) proposal, because it did not believe those rules could survive constitutional scrutiny under the Equal Protection
Clause of the Fourteenth Amendment. See
824 F.3d at 45–48. It therefore indicated
its tentative plan to adopt the same defini-

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

tion we held unlawful in Prometheus II,
even though it still lacked evidence that
this would promote ownership diversity,
because promoting ownership by small
businesses would be in the public interest
regardless. Id. at 46.
We held that the Commission ‘‘had more
than enough time to reach a decision on
the eligible entity definition.’’ Id. at 48.
This led to a remand and an ‘‘order [to]
the Commission TTT to act promptly to
bring the eligible entity definition to a
close.’’ Id. at 50. It was to ‘‘make a final
determination as to whether to adopt a
new definition;’’ ‘‘[i]f it need[ed] more data
to do so, it must get it.’’ Id. Finally, we
pointed out that we did ‘‘not intend to
prejudge the outcome’’ of the FCC’s analysis, and that we would review the merits of
its eventual decision once that decision had
been made through a final order. Id. at 50–
51.
Three months after we decided Prometheus III, the Commission followed
through on its promise to take final action
on the 2010 and 2014 review cycles. Its
Second Report and Order, 2014 Quadrennial Regulatory Review, 31 F.C.C.R. 9864
(2016) (the ‘‘2016 Report & Order’’), retained all of the major broadcast ownership
rules—the
newspaper/broadcast
cross-ownership rule, the radio/television
cross-ownership rule, the local radio ownership rule, and the local television ownership rule—in their existing forms. It also
adopted, again, a revenue-based definition
for eligible entities. It concluded that an
SDB or any related race- or gender-conscious definition could not withstand constitutional scrutiny because, even though
courts might accept viewpoint diversity as
a compelling governmental interest, the
evidence did not show a meaningful connection between female or minority ownership and viewpoint diversity. Id. ¶ 297. The
Commission also declined to adopt an ODP

575

standard, reasoning that it would require
individualized assessment that is not compatible with the smooth operation of the
FCC’s rules, and that such an individualized assessment could run afoul of First
Amendment principles. Id. ¶ 306. On a
related issue, the Commission declined to
implement an ‘‘incubator program,’’ under
which established broadcasters would be
encouraged to assist new entrants to break
into the industry, that would have employed an ODP standard. Finally, the
Commission reviewed a number of other
proposals to increase ownership diversity,
rejecting most but noting some merit in a
proposal to extend the cable procurement
rules, which require cable companies to
encourage minority-owned businesses to
work with them, to broadcast media. The
Commission did not adopt this idea, instead calling for further comment.
A number of industry groups filed a
petition for rehearing, and in November
2017 the Commission granted that petition
in its Order on Reconsideration and Notice of Proposed Rulemaking, 32 F.C.C.R.
9802 (2017) (the ‘‘Reconsideration Order’’).
This Order made sweeping changes to the
ownership rules. It eliminated altogether
the newspaper/broadcast and television/radio cross-ownership rules. It modified the
local television ownership rule, rescinding
the so-called ‘‘eight voices’’ test but retaining the rule against mergers between two
of the top four stations in a given market—albeit now subject to a discretionary
waiver provision. And it announced the
Commission’s intention to adopt an incubator program, although it left the formal
implementation of that program to a subsequent order. In this context, the Reconsideration Order called for comment on
various aspects of the program, including
how to define eligibility and how to encourage participation by established broadcasters.

576

939 FEDERAL REPORTER, 3d SERIES

In August 2018 the Commission issued
the Report and Order—In the Matter of
Rules and Policies to Promote New Entry
and Ownership Diversity in the Broadcasting Services, 33 F.C.C.R. 7911 (2018)
(the ‘‘Incubator Order’’). That Order established a radio incubator program that
would encourage established broadcasters
to provide ‘‘training, financing, and access
to resources’’ for new entrants in the market. Id. ¶ 6. Eligibility to receive this assistance was defined using two criteria: an
incubated entity must (1) qualify as a
small business under the Small Business
Administration’s rules, and (2) qualify as a
‘‘new entrant,’’ meaning that it must own
no television stations and no more than
three radio stations. Id. ¶ 8. The eligibility
criteria make no overt reference to race,
gender, or social disadvantage, but the
Commission concluded that using the ‘‘new
entrant’’ criterion would help boost ownership by women and minorities, as a bidding preference for new entrants in FCC
auctions had that effect. Id. ¶ 21.
As an incentive for established broadcasters to participate in the program, the
Incubator Order grants the incubating entity a reward waiver for the local radio
ownership rules. Among other options, the
waiver may be used in any market ‘‘comparable’’ to the one in which incubation
occurs. Id. ¶ 66–67. This means that it
must be in the same market tier for purposes of the local radio rule, and these
tiers are defined by the number of stations
in a market. One tier runs from zero to 14
stations, another from 15 to 29, a third
from 30 to 44, and finally the highest tier
includes all markets with 45 or more stations.
Before us are 10 different petitions for
review challenging different aspects of the
Commission’s actions since Prometheus
III. After the 2016 Report & Order issued
in November of that year, Prometheus Ra-

dio Project (‘‘Prometheus’’) and Media Mobilization Project (‘‘MMP’’) filed a petition
for review in our Court. About the same
time, three other petitions for review of
the 2016 Report & Order were filed in the
D.C. Circuit Court of Appeals: one by The
Scranton Times, L.P. (‘‘Scranton’’); one by
Bonneville
International
Corporation
(‘‘Bonneville’’); and one jointly by the Multicultural Media, Telecom and Internet
Council, Inc. (‘‘MMTC’’) and the National
Association of Black-Owned Broadcasters
(‘‘NABOB’’). The cases before the D.C.
Circuit were transferred here and the four
cases consolidated in January 2017; they
were then held in abeyance while the Commission considered the petitions for rehearing.
After the Reconsideration Order issued
in November 2017, four additional petitions for review were filed: one by Prometheus and MMP in our Court as well as
three in the D.C. Circuit from (1) Independent Television Group (‘‘ITG’’), (2) MMTC
and NABOB, and (3) a coalition of groups
including Free Press, the Office of Communication, Inc. of the United Church of
Christ (‘‘UCC’’), the National Association
of Broadcast Employees and Technicians—Communications Workers of America (‘‘NABET-CWA’’), and Common Cause.
Once again the D.C. Circuit transferred
the petitions before it to our Court, and we
consolidated the new wave of cases with
the existing petitions.
In February 2018 we stayed all proceedings pending the close of notice and comment on the Incubator Order. Once the
final Order issued in August 2018, Prometheus and MMP filed a petition for review
in our Court, and MMTC and NABOB
filed another in the D.C. Circuit that was
transferred here and the cases consolidated.
For purposes of briefing and oral argument, the various petitioners divided into

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

three groups. The first included Prometheus, MMP, Free Press, UCC, NABETCWA, and Common Cause, who argue that
the Commission has not adequately considered how its changes to the broadcast
ownership rules will affect ownership by
women and racial minorities. We refer to
this group as ‘‘Citizen Petitioners,’’ consistent with our past practice. See Prometheus III, 824 F.3d at 39. A second group,
consisting of MMTC and NABOB, argues
that the Incubator Order’s definition of
‘‘comparable markets’’ is unlawful and that
the Commission has unreasonably withheld
action on a proposal to extend cable procurement rules to broadcast media. To distinguish this group, we refer to its members as ‘‘Diversity Petitioners.’’ Finally,
ITG—standing alone now as the only ‘‘Deregulatory Petitioner’’—challenges the retention of the ‘‘top-four’’ component of the
local television rule (which, to repeat, bans
mergers between two or more of the four
largest stations in a given market).
The Commission defends its orders in
their entirety. Additionally, a group of Intervenors—including both Scranton and
Bonneville as well as many of the Deregulatory Petitioners from prior rounds of this
litigation—defends the FCC’s actions and
argues further that Citizen and Diversity
Petitioners lack standing.
II.

Jurisdiction and Standard of Review

We have jurisdiction to hear these petitions for review of agency action under 47
U.S.C. § 402(a) and 28 U.S.C. § 2342(1). As
noted above and covered in § III.A below,
Intervenors argue, with the support of the
Commission, that Citizen and Diversity
Petitioners lack standing.
[1, 2] Per § 706(2) of the Administrative Procedure Act (‘‘APA’’), we can set
aside agency action that is arbitrary or
capricious. 5 U.S.C. § 706(2). ‘‘The scope of

577

review under the ‘arbitrary and capricious’
standard is narrow and a court is not to
substitute its judgment for that of the
agency.’’ Motor Vehicle Mfrs. Ass’n of U.S.
v. State Farm Mut. Auto. Ins. Co., 463
U.S. 29, 43, 103 S.Ct. 2856, 77 L.Ed.2d 443
(1983). Despite this deference, we require
the agency to ‘‘examine the relevant data
and articulate a satisfactory explanation
for its action[,] including a rational connection between the facts found and the
choice made.’’ Id. (internal quotation
marks omitted).
[3] When the FCC conducts a Quadrennial Review under § 202(h), that provision also affects our standard of review, as
it requires that ‘‘no matter what the Commission decides to do to any particular
rule—retain, repeal, or modify (whether to
make more or less stringent)—it must do
so in the public interest and support its
decision with a reasoned analysis.’’ Prometheus I, 373 F.3d at 395. When § 202(h)
refers to rules being ‘‘necessary,’’ that
term means ‘‘useful,’’ ‘‘convenient,’’ or
‘‘helpful.’’ Id. at 394.
[4–6] This case also involves challenges
to agency inaction. Section 706(1) of the
APA allows us to ‘‘compel agency action
unlawfully withheld or unreasonably delayed.’’ 5 U.S.C. § 706(1). Under this provision, our ‘‘polestar is reasonableness.’’
Public Citizen Health Research Grp. v.
Chao, 314 F.3d 143, 151 (3d Cir. 2002). We
must ‘‘balance the importance of the subject matter being regulated with the regulating agency’s need to discharge all of its
statutory responsibilities under a reasonable timetable.’’ Oil, Chem. & Atomic
Workers Union v. Occupational Safety &
Health Admin., 145 F.3d 120, 123 (3d Cir.
1998).
With this balance in mind, unreasonable
delay should be measured by the following factors: First, the court should as-

578

939 FEDERAL REPORTER, 3d SERIES

certain the length of time that has
elapsed since the agency came under a
duty to act. Second, the reasonableness
of the delay should be judged in the
context of the statute authorizing the
agency’s action. Third, the court should
assess the consequences of the agency’s
delay. Fourth, [it] should consider any
plea of administrative error, administrative inconvenience, practical difficulty in
carrying out a legislative mandate, or
need to prioritize in the face of limited
resources.
Id. (internal quotation marks omitted).
III.
A.

Analysis
Standing

[7] As a threshold matter, Intervenors
argue that Citizen and Diversity Petitioners (called ‘‘Regulatory Petitioners’’ for
ease of reference in this section) lack
standing, and the FCC concurs in that
argument. To have standing to sue in federal court under Article III of the Constitution, a plaintiff must have (1) an ‘‘injury
in fact,’’ meaning ‘‘an invasion of a legally
protected interest which is (a) concrete
and particularized[,] and (b) actual or imminent, not conjectural or hypothetical,’’
that is (2) ‘‘fairly traceable to the challenged action of the defendant,’’ and it
must (3) be ‘‘likely, as opposed to merely
speculative, that the injury will be redressed by a favorable decision.’’ Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560–
61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992)
(internal citations and quotation marks
omitted).
There are two separate disputes regarding Regulatory Petitioners’ standing. First
is a procedural question. After Intervenors
raised the issue in their merits brief, Regulatory Petitioners submitted declarations
to establish standing along with their reply
briefs. Intervenors now argue that we
should not consider those declarations or

the facts asserted within them because
materials to establish standing must be
submitted instead with Regulatory Petitioners’ opening briefs. Even accepting the
declarations, Intervenors still dispute
standing.
[8–10] We disagree on both counts. It
is well established that petitioners challenging agency action may supplement the
administrative record for the purpose of
establishing Article III standing, even
though judicial review of agency action is
usually limited to the administrative record. As the Tenth Circuit observed in US
Magnesium, LLC v. EPA, 690 F.3d 1157,
1164 (10th Cir. 2012), the Article III standing requirements do not apply to agency
proceedings, and thus there is no reason
for the facts supporting standing to be a
part of the administrative record. It is,
moreover, the practice in most of the Circuits that have considered the matter to
accept these materials at any stage of the
litigation. In US Magnesium itself, for
example, the Tenth Circuit accepted supplemental materials that were attached to
a petitioner’s reply brief. Id. (Its discussion did not squarely address the timing
issue, only whether a court could properly
go beyond the administrative record to
ascertain standing at all.) The Seventh Circuit has accepted supplemental submissions filed after oral argument. Texas Indep. Producers and Royalty Owners Ass’n
v. EPA, 410 F.3d 964, 971 (7th Cir. 2005).
And the Ninth Circuit has expressly held
that standing need not be established in an
opening brief in cases like this. Nw. Envtl.
Def. Ctr. v. Bonneville Power Admin., 117
F.3d 1520, 1528 (9th Cir. 1997).
Against this, Intervenors marshal two
sources of contradictory authority. First is
the Supreme Court’s statement, in a footnote in Lujan itself, that ‘‘standing is to be
determined at the commencement of suit.’’
504 U.S. at 570 n.5, 112 S.Ct. 2130 (empha-

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

sis added). This is not on point. That footnote sought only to rebut an argument
from Justice Stevens’s dissenting opinion
that, although the agencies whose actions
would harm the petitioners there were not
technically parties to the lawsuit, those
agencies would not ignore a decision from
the Supreme Court interpreting the relevant legal provisions, and thus such a decision would actually redress the petitioners’
injuries. The majority rejected this argument because it depended entirely on the
contingent fact that the Supreme Court
ended up taking the case, which could not
have been known at the start of suit.
Hence ‘‘commencement of suit’’ indicates
only that standing must exist at the beginning of litigation, not that the materials
establishing standing must be submitted at
that time.
The other authorities cited by Intervenors are cases from the D.C. Circuit. See,
e.g., Sierra Club v. EPA, 292 F.3d 895, 900
(D.C. Cir. 2002). But that Circuit has a
provision of its local rules expressly requiring the petitioners in any ‘‘cases involving direct review TTT of administrative
actions’’ to file materials establishing
standing along with their opening brief.
See D.C. Cir. Rule 28(a)(7). The cases cited
by Intervenors all simply applied this rule,
which does not apply to proceedings in our
court.
[11, 12] It appears that this is a question of first impression in our Circuit. To
resolve it, we adopt the view held overtly
by the Ninth Circuit and implicitly by the
Tenth and Seventh: parties may submit
materials to establish standing at any time
in the litigation.1 This is especially so here,
1.

As noted, other courts have gone so far as to
accept standing materials submitted after oral
argument. See Texas Indep. Producers and
Royalty Owners Ass’n, 410 F.3d at 971. This
could be appropriate where the issue of
standing is not raised until oral argument.

579

where the same parties have been litigating before us for a decade and a half. It
was not unreasonable for Regulatory Petitioners to assume that their qualification to
continue in the case was readily apparent.
Cf. Del. Dep’t. of Nat’l Res. & Envtl. Control v. EPA, 785 F.3d 1, 8–9 (D.C. Cir.
2015) (permitting petitioners to submit
standing materials with their reply brief
despite the contrary requirement of the
D.C. Circuit’s local rules when they reasonably believed that standing was selfevident).
[13] Turning to the substance of standing, Intervenors argue that Regulatory Petitioners’ alleged harm is not sufficiently
imminent to establish standing because
any mergers under the new rules would
require FCC approval and would be subject to judicial review; in effect, Regulatory Petitioners have not produced evidence
that the rule changes will lead to additional consolidation. In addition, Intervenors
continue, Regulatory Petitioners lack
standing because their objections to the
rule changes pertain to ownership diversity and not to the § 202(h) purpose of
promoting competition. We find none of
these arguments persuasive.
The first two arguments share a common theme: although Regulatory Petitioners will be harmed by consolidation within
the industry (a fact Intervenors do not
appear to contest), it is speculative that
the new rules will actually lead to consolidation. The problem is that encouraging
consolidation is a primary purpose of the
new rules. This is made clear throughout
the Reconsideration Order, see, e.g., 32
F.C.C.R. at 9811, 9836. The Government
Although
rule for
establish
promptly
tion.

we do not set out a comprehensive
all cases, in general materials to
standing should be submitted
once standing is called into ques-

580

939 FEDERAL REPORTER, 3d SERIES

cannot adopt a policy expressly designed
to have a certain effect and then, when the
policy is challenged in court by those who
would be harmed by that effect, respond
that the policy’s consequences are entirely
speculative.
Intervenors
cite
Rainbow/PUSH Coalition v. FCC, 330 F.3d
539, 542–44 (D.C. Cir. 2003), but that case
only held that petitioners there, who
sought to assert standing simply as audience-members, had to demonstrate that a
proposed merger would have some specific
baleful effect(s) on the viewing audience,
i.e., some degradation of the programming
available to that audience. Here Intervenors do not contest that consolidation, if it
occurs, will harm the Regulatory Petitioners.
Nor is it material that any future mergers would require FCC approval. The
point is that, under the new rules, it will
approve mergers that it would have rejected previously, with the rule changes in the
Reconsideration Order the key factor causing those grants of approval. See Sara
Fischer, The local TV consolidation race
is here, Axios (Aug. 10, 2018), available at
https://www.axios.com/the-local-tvconsolidation-war-is-here-7c65f3fb-eaab-43
c4-9a00-81303867dbee.html (‘‘Many local
broadcasters cite one key reason for their
consolidation—[t]he FCC’s landmark decision last year to roll back old regulations
that limited the ability of TV companies to
own properties in the same market.’’). Intervenors’ citation to Clapper v. Amnesty
International, USA, 568 U.S. 398, 410–11,
2.

Clapper involved a challenge to Section 702
of the Foreign Intelligence Surveillance Act,
50 U.S.C. § 1881a, part of the 2008 FISA
Amendments. Pub. L. No. 110-261, 122 Stat.
2436 (2008). The chain of possibilities the
Court identified ran as follows: ‘‘(1) the Government will decide to target the communications of non-U.S. persons with whom they
communicate; (2) in doing so, the Government will choose to invoke its authority under
[§ 702] rather than utilizing another method

133 S.Ct. 1138, 185 L.Ed.2d 264 (2013), is
not to the contrary. It involved a ‘‘highly
attenuated chain of possibilities’’ that,
among other things, would make it difficult
to discern whether the challenged law was
even the cause-in-fact of the plaintiffs’ alleged injuries.2 The causal chain here is
anything but attenuated.
[14, 15] Intervenors’ third argument
fails for multiple reasons. First, they identify incorrectly the goals of § 202(h) as
limited to promoting competition. Instead,
as its text makes plain, review under that
provision is intended to determine whether
each of the ownership rules serves the
public interest, broadly conceived, in light
of ongoing competitive developments within the industry. See Prometheus I, 373
F.3d at 390–95.
[16] In addition, there is no requirement that the harm alleged be closely tied
to a challenger’s legal argument in order
to have Article III standing. Intervenors
invoke a second Rainbow/PUSH Coalition
v. FCC case, 396 F.3d 1235, 1242–43 (D.C.
Cir. 2005), there involving an objection to
renewal of a radio station’s license because
it had allegedly engaged in employment
discrimination. Audience members, the
D.C. Circuit held, lacked standing to object
because the alleged violative conduct at
issue had not harmed them at all. This
does not support the notion that a party
may lack standing, even though it will
suffer a concrete and particularized injury,
simply because it is the wrong ‘‘kind’’ of
of surveillance; (3) the Article III judges who
serve on the Foreign Intelligence Surveillance
Court will conclude that the Government’s
proposed surveillance procedures satisfy
[§ 702]’s many safeguards and are consistent
with the Fourth Amendment; (4) the Government will succeed in intercepting the communications of respondents’ contacts; and (5)
respondents will be parties to the particular
communications that the Government intercepts.’’

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

injury. That argument sounds not in the
requirements of Article III but of ‘‘prudential standing,’’ a now-discredited doctrine
under which courts would decline to hear
cases within their jurisdiction if the plaintiffs’ complaint did not fall within the ‘‘zone
of interests’’ protected by the law they
invoked. In Lexmark Int’l, Inc. v. Static
Control Components, Inc., 572 U.S. 118,
134 S.Ct. 1377, 188 L.Ed.2d 392 (2014), the
Supreme Court held that this should be
understood solely as a matter of statutory
construction, i.e., of determining whether a
given statutory cause of action extended to
a particular plaintiff. Intervenors do not
argue, and could not seriously contend,
that Regulatory Petitioners do not qualify
as ‘‘aggrieved parties’’ for purposes of the
APA’s general cause of action. See 5
U.S.C. § 702.
We emerge from the bramble to hold
that Regulatory Petitioners have standing.
Thus we proceed to the merits issues before us.
B.

Retention of the Top-Four Rule

[17] Deregulatory Petitioner ITG argues that the FCC’s decision to retain its
‘‘top-four’’ local television rule, prohibiting
the merger of any two of the top four
stations in a given market, while rescinding the ‘‘eight voices’’ rule, was arbitrary
and capricious. This is an issue we dealt
with before, in Prometheus I, when we
upheld the top-four restriction against deregulatory challenges. We noted that ‘‘we
must uphold an agency’s line-drawing decision when it is supported by the evidence
in the record.’’ Prometheus I, 373 F.3d at
417 (citing Sinclair Broadcast Group, Inc.
v. FCC, 284 F.3d 148, 162 (D.C. Cir. 2002);
AT&T Corp. v. FCC, 220 F.3d 607, 627
(D.C. Cir. 2000)). And the Commission had
ample record evidence supporting its decision to draw the line at four: it saw a
‘‘cushion’’ of audience share between the

581

fourth- and fifth-ranked stations, reflecting
that the top four would be the affiliates of
the four major national networks (ABC,
CBS, NBC, and Fox); the same cushion
was apparent in national viewership figures for the networks themselves; mergers
between the third-and fourth-largest stations in each of the ten largest markets
would produce a new largest station; and
mergers among top-four stations would
generally increase the statistical consolidation of the local market by a substantial
amount. Id. at 418.
Now ITG argues that the FCC ‘‘failed to
recognize that the same reasons it found
supported repeal of the Eight-Voice test
also required it to repeal or modify the
Top-Four Prohibition.’’ ITG Br. at 20. It
first takes issue with the notion of a ratings ‘‘cushion’’ between the top-four and
other stations, in part questioning whether
the cushion exists and in part asking why
it should matter. Id. at 28–29. It further
contests the FCC’s reliance on its conclusion, from the 2002 review cycle, that
mergers among top-four stations would
generally result in a new largest station,
noting that the evidence shows that mergers between the third- and fourth-largest
stations would not result in a new largest
entity in roughly half of the markets with
at least four stations. Id. at 29–30. Finally,
it argues that the new waiver provision
cannot excuse that, as it sees things, the
rule as a whole is not rationally related to
the facts. Id. at 31–32.
We disagree. None of ITG’s arguments
meaningfully distinguish our holding in
Prometheus I. Just as in that case, ITG
simply takes issue with the way in which
the Commission chose to draw the lines.
The basic logic of the top-four rule, as we
recognized in 2004, is that while consolidation may offer efficiency gains in general,
mergers between the largest stations in a
market pose a unique threat to competi-

582

939 FEDERAL REPORTER, 3d SERIES

tion. See Prometheus I, 373 F.3d at 416.
Although there might be other more tailored, and more complex, ways to identify
those problematic mergers, the simplest is
to declare, as the Commission has done,
that mergers between two or more of the
largest X stations in a market are not
permitted. The choice of X must be somewhat arbitrary: each market’s contours will
be slightly different, and no single brightline rule can capture all this complexity.
But the television industry does generally
feature a distinct top-four, corresponding
to the four major national networks, and
four is therefore a sensible number to pick.
And this is exactly the kind of line-drawing, where any line drawn may not be
perfect, to which courts are the most deferential. See id. at 417. ITG has much to
say about everything this simple rule misses, but that is beside the point. The Commission has the discretion to adopt a blunt
instrument such as the top-four rule if it
chooses. Indeed we confronted, and rejected, this exact argument—that treating all
top-four stations the same wrongly ignored
the variation in market structures—in Prometheus I. Id. at 417–18.
Nor is it improper that the FCC’s justification for this rule is the same as it was
in the 2002 review cycle. Section 202(h)
requires only that the Commission think
about whether its rules remain necessary
every four years. It does not imply that
the policy justifications for each regulation
have a shelf-life of only four years, after
which they expire and must be replaced.
Nor does § 202(h), or any other authority
cited by ITG, require that the Commission
always base its decisions on perfectly upto-date data. In any event, ITG itself cites
more recent data presented to the Commission through the administrative pro3.

Accordingly, we need not address ITG’s argument that the newly added waiver provision, which allows the Commission to permit
a merger that would otherwise be barred by

cess, and this information paints a picture
materially identical to what the Commission saw in 2002.
In this context, we reaffirm our conclusion from Prometheus I that retention of
the top-four rule is amply supported by
record evidence and thus is not arbitrary
or capricious.3
C.

‘‘Comparable Markets’’ Definition

[18] Diversity Petitioners challenge
the Incubator Order’s definition of comparable markets for radio stations, arguing
that it was not properly noticed and in any
event was arbitrary and capricious.
Their argument devolves to this. The
basic concept of the incubator program
uses a waiver of the rules governing local
radio ownership as a reward to induce
participation by established broadcasters.
The Notice of Proposed Rulemaking
(‘‘NPRM’’) sought comment on the following questions about these reward waivers:
‘‘How should the Commission structure the
waiver program? For example, should the
waiver be limited to the market in which
the incubating activity is occurring? Alternatively, should waiver be permissible in
any similarly sized market? How would the
Commission determine which markets are
similar in size?’’ Reconsideration Order
¶ 137. Diversity Petitioners take this to
indicate only that the Commission was
considering two possibilities: either that
the waiver could only be used in the same
market where the incubating activity occurred or that it could be used in other
markets of similar population. They contend that ‘‘size’’ in this context is most
naturally read as referring to population,
or some other indicator of market size
the top-four rule if ‘‘the reduction in competition is minimal and is outweighed by public
interest benefits,’’ Reconsideration Order ¶ 82,
cannot save an otherwise irrational rule.

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

(such as audience or listenership numbers),
as opposed to the number of radio stations
in the market. The two responsive comments on this issue, they contend, seem to
have reflected this assumption. See Diversity Petitioners’ Br. at 16–17.
Instead, as noted, the Incubator Order
adopted a system of reward waivers that
can be used in any ‘‘comparable’’ market,
meaning not a market of similar population
but one with a similar number of radio
stations. This proposal was first described
in detail in the draft of the Incubator
Order made available before the final order was promulgated. In response, Diversity Petitioners made several ex parte
communications with the Commission expressing their concern over this definition
of ‘‘comparable’’ markets. Id. at 21–22.
Their letters expressed concern that the
proposed rule would allow a broadcaster to
incubate in a small rural market and then
use its reward waiver in a much larger
market, such as New York City, thus getting an outsized return for its investment.
Thus Diversity Petitioners suggested that
the rule should disallow using a waiver in
another top-tier ‘‘comparable’’ market that
is not within five spots of the incubating
market in the Nielsen population-based
rankings, but the Commission declined to
adopt this proposal. See Incubator Order
¶ 68.
[19, 20] Diversity Petitioners argue
that this was not adequate notice. We have
addressed similar claims in both Prometheus I, 373 F.3d at 411–412, and Prometheus II, 652 F.3d at 449–50. Essentially,
‘‘the adequacy of the notice must be tested
by determining whether it would fairly
apprise interested persons of the ‘subjects
and issues’ before the agency.’’ Prometheus I, 373 F.3d at 411 (quoting Am. Iron
& Steel Inst. v. EPA, 568 F.2d 284, 293 (3d
Cir. 1977)). The strongest fact supporting
Diversity Petitioners’ claim is the swift

583

response by commenters expressing surprise once the eventual definition of comparable markets was made public. Courts
will consider the behavior of commenters
in assessing whether notice was adequate.
See, e.g., Sprint Corp. v. FCC, 315 F.3d
369, 376 (D.C. Cir. 2003).
But parsing the language of the Notice
of Proposed Rulemaking itself suffices to
show that it did provide adequate notice.
Specifically, after asking whether the waiver should be applicable in any similarly
sized market, the NPRM asked how the
Commission would determine which markets are similarly sized. This strongly suggests that the Commission was considering
a range of different ways to measure market size, and it undercuts Diversity Petitioners’ assertion that the word ‘‘size’’
could only be read to mean population. See
Diversity Petitioners’ Br. at 16 (‘‘The reference to ‘size’ in the NPRM is generally
understood in the broadcast industry to
mean markets that have similar populations.’’).
[21] Turning to the substance of the
comparable markets definition, Diversity
Petitioners assert that the FCC’s definition will create a perverse incentive for
established broadcasters to incubate in
markets with low populations but many
radio stations (using the example of
Wilkes-Barre, Pennsylvania) and then use
their waivers in ‘‘comparable’’ markets
with much greater populations (e.g., New
York City). The Incubator Order responded to this concern by noting that some
markets with similar populations have
vastly different numbers of stations, and
stated that ‘‘[i]n crafting our standard, we
focused primarily on preventing the potential for ownership consolidation in a market with fewer stations and independent
owners than the market in which the incubation relationship added a new entrant.’’
Incubator Order ¶ 68. It expected that

584

939 FEDERAL REPORTER, 3d SERIES

incubating entities will not necessarily use
their waivers only in the largest markets,
but rather wherever they face ownership
restrictions under the FCC’s rules. Id.
And it noted that some incubating entities
might not have relevant ownership interests in other markets of similar population
size, such that they would have no flexibility under Diversity Petitioners’ proposed
rules. Id.
Diversity Petitioners posit this as an
inadequate response, but we disagree.
They are correct that the Commission did
not rebut the suggestion that waivers
might be used in markets with much higher populations than the ones where incubation is occurring. It explained instead why
it did not think this prospect overly frightening. Diversity Petitioners suggest that
this dynamic could reduce the positive influence of the incubator program on ownership diversity, as (they claim) smaller
markets like Wilkes-Barre are less diverse. This is not supported by the record:
as Intervenors note, many smaller markets
are quite racially diverse, see Intervenors’
Br. at 50, and Diversity Petitioners’ rejoinder that these markets contain fewer total
people of color than big cities like New
York or Los Angeles, Diversity Petitioners’ Reply Br. at 17 n.7, is essentially
tautological. And we cannot say that the
Commission’s focus on the potential anticompetitive effects of the waiver program
is unreasonable, for the waivers relate specifically to rules designed to promote competition.
We therefore hold that the definition of
‘‘comparable markets’’ in the Incubator
Order was adequately noticed and is not
arbitrary and capricious.
D.

Effect of Rule Changes on Ownership Diversity

[22] Citizen Petitioners argue that the
Commission did not adequately consider

the effect its new rules would have on
ownership of broadcast media by women
and racial minorities. We agree. In Prometheus III we stated that the ongoing attempt to bring the 2010 and 2014 review
cycles to a close must ‘‘include a determination about the effect of the rules on
minority and female ownership.’’ 824 F.3d
at 54 n.13 (internal quotation marks omitted). Both the 2016 Report & Order and
the Reconsideration Order ostensibly included such a determination, and each concluded that the broadcast ownership rules
have minimal effect on female and minority ownership. But these conclusions were
not adequately supported by the record,
and thus they were arbitrary and capricious.
The 2016 Report & Order retained all of
the existing ownership rules, but it also
addressed a proposal to tighten the local
television and radio ownership rules as a
means of promoting ownership diversity.
The Commission rejected this proposal because it found no evidence that reducing
consolidation would have that effect based
on the following evidence. The National
Telecommunications and Information Administration (‘‘NTIA’’) had collected data
regarding the number of minority-owned
stations in the late 1990s. About a decade
later, the FCC itself began collecting this
data through a survey using what is called
‘‘Form 323.’’ See Prometheus III, 824 F.3d
at 44 (discussing the use of Form 323 to
gather data about minority ownership). It
did so with the express purpose of generating better data about ways to increase
ownership by women and minorities. Id.
What the 2016 Report & Order did was
to compare the NTIA data from the late
1990s, around the time that the local ownership rules were first relaxed, with the
subsequent Form 323 data. It saw the
same pattern for television and for radio:
an initial decrease in minority-owned sta-

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

tions after the rules became more flexible
to permit more consolidation, followed by a
long-term increase. The NTIA showed 312
minority-owned radio stations in 1995, just
before the local radio rule was relaxed,
followed by 284 in 1996–97, 305 in 1998,
and 426 in 1999–2000. Form 323 data,
meanwhile, showed 644 such stations in
2009, 756 in 2011, and 768 in 2013. See
2016 Report & Order ¶ 126–28. Turning to
television, NTIA data showed 32 minorityowned stations in 1998—just before the
local television rule was relaxed—and 23
stations in 1999–2000, while Form 323 data
showed 60 stations in 2009, 70 in 2011, and
83 in 2013. Id. ¶ 77.
Because the trendlines did not show that
relaxing these rules had played a major
role in restricting ownership diversity, the
Commission thought that reversing the
process (that is, tightening local radio and
television ownership rules) would also be
unlikely to have a major effect. Id. ¶ 126.
At the same time it did not think that
further loosening the rules would be an
effective means of promoting diversity, as
the data did not suggest that the increase
from the late 1990s through the 2009–13
period had been caused by the relaxed
rules. See id. ¶ 78, 128. The Order stated
that the Commission remained ‘‘mindful of
the potential impact of consolidation TTT
on ownership opportunities for TTT minority- and women-owned businesses, and we
will continue to consider the implications in
the context of future quadrennial reviews.’’
Id. ¶ 128. The 2016 Report & Order also
cited this same data to suggest that its
modest revisions to the cross-ownership
rules would not be likely to have a major
influence on ownership diversity. Id. ¶ 196
n.586.
The Reconsideration Order, by contrast,
did make major changes to the ownership
rules, and it invoked the same evidence as
the 2016 Report & Order to conclude that

585

this would not meaningfully affect ownership diversity. Thus it stated, as to the
cross-ownership rules, that ‘‘record evidence demonstrates that previous relaxations of other ownership rules have not
resulted in an overall decline in minority
and female ownership of broadcast stations, and we see no evidence to suggest
that eliminating the [Newspaper/Broadcast
Cross-Ownership] Rule will produce a different result and precipitate such a decline.’’ Reconsideration Order, ¶ 46. As to
the local television rule, the Order concluded that ‘‘the record does not support a
causal connection between modifications to
the Local Television Ownership Rule and
minority and female ownership levels;’’
thus the modifications ‘‘are not likely to
harm minority and female ownership.’’ Id.
¶ 83.
[23] Problems abound with the FCC’s
analysis. Most glaring is that, although we
instructed it to consider the effect of any
rule changes on female as well as minority
ownership, the Commission cited no evidence whatsoever regarding gender diversity. It does not contest this. See Respondent’s Br. at 40 n.14. Instead it notes that
‘‘no data on female ownership was available’’ and argues that it ‘‘reasonably relied
on the data that was available and was not
required to fund new studies.’’ Id. Elsewhere, however, the Commission purports
to have complied with our instructions to
consider both racial and gender diversity,
repeatedly framing its conclusion in terms
that encompass both areas. See, e.g., id. at
33–36. The trouble is that any ostensible
conclusion as to female ownership was not
based on any record evidence we can discern. Courts will find agency action arbitrary and capricious where the agency
‘‘entirely fail[s] to consider an important
aspect of the problem,’’ State Farm, 463
U.S. at 43, 103 S.Ct. 2856, and that is
effectively what happened here. The only

586

939 FEDERAL REPORTER, 3d SERIES

‘‘consideration’’ the FCC gave to the question of how its rules would affect female
ownership was the conclusion there would
be no effect. That was not sufficient, and
this alone is enough to justify remand.
Even just focusing on the evidence with
regard to ownership by racial minorities,
however, the FCC’s analysis is so insubstantial that it would receive a failing
grade in any introductory statistics class.
One basic problem is the way the Commission treats the NTIA and Form 323 data
as comparable, even though these two data
sets were created using entirely different
methodologies. For example, we do not
know how many minority-owned stations
the Form 323 survey would have found in
1999, or how many the NTIA’s methods
would have found in 2009. Indeed the
NTIA data is known to be substantially
incomplete, and the large increase in minority-owned radio stations it showed between 1998 and 1999–2000 is thought to
have been caused by largely improved
methodology rather than an actual increase in the number of minority-owned
stations. 2016 Report & Order ¶ 126. Attempting to draw a trendline between the
NTIA data and the Form 323 data is
plainly an exercise in comparing apples to
oranges, and the Commission does not
seem to have recognized that problem or
taken any effort to fix it.
Even if we could treat the use of these
two data sets as reliable, the FCC’s statistical conclusions are woefully simplistic.
They compare only the absolute number of
minority-owned stations at different times,
and make no effort to control for possible
confounding variables. The simplest of
these would be the total number of stations in existence. We do not know, for
example, whether the percentage of stations that are minority-owned went up or
down from 1999 to 2009.

And even if we only look at the total
number of minority-owned stations, the
FCC did not actually make any estimate of
the effect of deregulation in the 1990s.
Instead it noted only that, whatever this
effect was, deregulation was not enough to
prevent an overall increase during the following decade. The Commission made no
attempt to assess the counterfactual scenario: how many minority-owned stations
there would have been in 2009 had there
been no deregulation.
An analogy helps illustrate this point: if
an economy that has been growing at an
annual 2% rate suffers a serious depression in which it shrinks by 10%, and then
resumes growing at the same 2% rate, a
decade later it will likely be bigger than it
was on the eve of the depression. But this
does not mean that the depression had no
effect on the size of the economy. Nothing
in the FCC’s analysis rules out, or even
addresses, the possibility that the 1990s
deregulation caused such a one-time ‘‘depression’’ of minority ownership even if it
did not reverse the long-term increase in
minority-owned stations.
The Commission does not really contest
any of these deficiencies in its data or its
analysis. Instead it argues that they are
irrelevant. It notes, first of all, that ownership diversity is just one of many competing policy goals it must balance when adjusting its regulations. Respondent’s Br. at
32–33. Thus, the Reconsideration Order
noted that the Commission should not retain a rule that unduly burdened the competitive practices of all broadcasters
‘‘based on the unsubstantiated hope that
these restrictions will promote minority
and female ownership.’’ Reconsideration
Order ¶ 65. It cites to broad support for
eliminating
the
newspaper/broadcast
cross-ownership rules, including from minority media owners, as evidence that doing so would not have an adverse effect on

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

minority ownership. Respondent’s Br. at
34. And it asserts that, while the data used
was not perfect, it was the only evidence
available as to the effects of earlier rounds
of deregulation on ownership diversity. Id.
at 40. The Commission solicited evidence
on this issue during the notice-and-comment period, and it did not receive any
information of higher quality than the
NTIA/Form 323 data. Thus it argues it
had no affirmative burden to produce additional evidence or to fund new studies
itself. Id. at 47 (citing Stilwell v. Office of
Thrift Supervision, 569 F.3d 514, 519
(D.C. Cir. 2009)).
[24] We are not persuaded. It is true
that ‘‘[t]he APA imposes no general obligation on agencies to produce empirical
evidence,’’ only to ‘‘justify its rule with a
reasoned explanation.’’ Stilwell, 569 F.3d
at 519. But in this case the reasoned explanation given by the Commission rested on
faulty and insubstantial data. In Stilwell
the agency had proceeded based on its
‘‘long experience’’ supervising the regulated industry and had support from the commenters. Id. Here, the Commission has not
relied on its general expertise, and, outside
of the modifications to the newspaper/broadcast cross-ownership rule, it does
not rely on support from commenters. It
has not offered any theoretical models or
analysis of what the likely effect of consolidation on ownership diversity would be.
Instead it has confined its reasoning to an
insubstantial statistical analysis of unreliable data—and, again, has not offered even
that much as to the effect of its rules on
female ownership.
Finally, it is true that promoting ownership diversity is but one of the policy goals
the FCC must consider. But this only
highlights that it is something the Commission must consider. It is, as State Farm
says, ‘‘an important aspect of the problem.’’ 463 U.S. at 43, 103 S.Ct. 2856. The

587

Commission might well be within its rights
to adopt a new deregulatory framework
(even if the rule changes would have some
adverse effect on ownership diversity) if it
gave a meaningful evaluation of that effect
and then explained why it believed the
trade-off was justified for other policy reasons. But it has not done so. Instead it has
proceeded on the basis that consolidation
will not harm ownership diversity. This
may be so; perhaps a more sophisticated
analysis would strengthen, not weaken, the
FCC’s position. But based on the evidence
and reasoning the Commission has given
us, we simply cannot say one way or the
other. This violated the Commission’s obligations under the APA and our remand
instructions, and we ‘‘may not supply a
reasoned basis for the agency’s action that
the agency itself has not given.’’ Id. (citing
SEC v. Chenery Corp., 332 U.S. 194, 196,
67 S.Ct. 1760, 91 L.Ed. 1995 (1947)).
Accordingly, we vacate the Reconsideration Order and the Incubator Order in
their entirety, as well as the ‘‘eligible entity’’ definition from the 2016 Report & Order. On remand the Commission must ascertain on record evidence the likely effect
of any rule changes it proposes and whatever ‘‘eligible entity’’ definition it adopts on
ownership by women and minorities,
whether through new empirical research
or an in-depth theoretical analysis. If it
finds that a proposed rule change would
likely have an adverse effect on ownership
diversity but nonetheless believes that rule
in the public interest all things considered,
it must say so and explain its reasoning. If
it finds that its proposed definition for
eligible entities will not meaningfully advance ownership diversity, it must explain
why it could not adopt an alternate definition that would do so. Once again we do
not prejudge the outcome of any of this,
but the Commission must provide a sub-

588

939 FEDERAL REPORTER, 3d SERIES

stantial basis and justification for its actions whatever it ultimately decides.
E.

Delay in Adopting Procurement
Rules

[25] Finally, Diversity Petitioners argue that the Commission has unreasonably
delayed action on their proposal to extend
the cable procurement rules to broadcast
media. These rules require cable companies to encourage minority- and femaleowned businesses to do business with
them. See 47 C.F.R. § 76.75(e). A proposal
to apply similar rules to broadcast media
companies was one of the proposals we
instructed the Commission to consider on
remand all the way back in Prometheus I.
See 373 F.3d at 421 n.59. In Prometheus
III, the same Diversity Petitioners argued
the FCC had unlawfully refused to address
these proposals. We declined to pass on
this challenge, noting that the Chairman of
the FCC had committed to addressing
these proposals in what eventually became
the 2016 Report & Order, and thus the
challenge was premature. See 824 F.3d at
50 n.11. At the same time we ‘‘note[d] our
expectation that the Commission will meet
its proffered deadline.’’ The 2016 Report &
Order ultimately found that there was
‘‘merit in exploring’’ whether to adopt this
proposal, and stated that it would ‘‘evaluate the feasibility’’ of doing so. 2016 Report
& Order ¶ 330. [J.A. at 169] The Notice of
Proposed Rulemaking for the 2018 cycle
sought comment on a number of aspects of
this proposal, including its constitutionality. See 2018 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the
Telecommunications Act of 1996, Notice of
Proposed Rulemaking, 84 F.R. 6741, 6752
(Feb. 28, 2019)
As set out at length in Prometheus III,
when reviewing a claim of unreasonable

agency delay we evaluate four factors:
first, the length of time since the agency
came under a duty to act; second, the
context of the statute authorizing the
agency’s action; third, the consequences of
the agency’s delay; and, finally, any claim
of administrative error, inconvenience, or
practical difficulty carrying out the obligation, especially in light of limited resources. See 824 F.3d at 39–40 (quoting
Oil, Chem. & Atomic Workers Union, 145
F.3d at 123).
The Commission argues it has not unreasonably delayed action because the record as of the 2016 Report & Order did not
support adopting the proposal—largely because the commenters did not offer any
substantial supporting materials for it. See
Respondent’s Br. at 89. We agree. This is
not like the eligible entity issue in Prometheus III, where the FCC had failed to act
for well over a decade. At most, the agency’s failure to act began with the 2016
Report & Order three years ago. And the
consequence of the Commission’s failure to
act at that time was evidently to keep the
proposal alive, rather than rejecting it outright for lack of support. Given all of this,
not to mention that the NPRM for the
2018 cycle has sought further comment on
this proposal, we do not at this time find
unreasonable delay by the Commission.
That being said, we do anticipate that
the Commission will take final action on
this proposal one way or another when it
resolves the 2018 review cycle, at which
time its decision will be subject to judicial
review. If it does not do so, we may reach
a different conclusion as to the reasonableness of that additional delay.
F.

Conclusion

Citizens and Diversity Petitioners have
standing to press their claims. On the merits, we hold that the FCC’s retention of the
‘‘top-four’’ prong of its local television own-

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

ership rule was not arbitrary and capricious. We also hold that the Incubator
Order’s definition of ‘‘comparable markets’’
was adequately noticed and was not arbitrary and capricious. And we decline to
hold that the FCC has unreasonably delayed action on the proposal to adopt procurement rules for the broadcasting industry. We do conclude, however, that the
Commission has not shown yet that it adequately considered the effect its actions
since Prometheus III will have on diversity in broadcast media ownership. We
therefore vacate and remand the Reconsideration and Incubator Orders in their entirety, as well as the ‘‘eligible entity’’ definition from the 2016 Report & Order.
Citizen Petitioners ask us to appoint a
mediator or master to ‘‘ensure timely compliance’’ with our decision. Citizen Petitioners’ Br. at 43. Courts will sometimes
appoint a special master to oversee compliance with remedial decrees, but these
cases typically involve institutions such as
prisons where the Court could not otherwise easily ascertain whether the defendant is complying, and the master’s job is
limited only to observing and reporting.
See, e.g., Ruiz v. Estelle, 679 F.2d 1115
(5th Cir. 1982), amended in part and vacated in part on other grounds, 688 F.2d
266 (5th Cir. 1982) (per curiam). There is
no need for such an observational special
master here, where the Commission’s actions on remand will be published in the
Federal Register and readily available for
subsequent judicial review. Moreover, we
would decline in any event to appoint a
special master with any powers beyond the
simply observational, as doing so would
raise grave constitutional concerns, see e.g.
Cobell v. Norton, 334 F.3d 1128, 1141–42
(D.C. Cir. 2003), and we do not doubt the
Commission’s good faith in its efforts to
comply with our requests.

589

Because yet further litigation is, at this
point, sadly foreseeable, this panel again
retains jurisdiction over the remanded issues.
SCIRICA, Circuit Judge, concurring in
part and dissenting in part
The Telecommunications Act of 1996
mandates that the Federal Communications Commission (FCC) regularly review
its broadcast media ownership rules to ensure they remain in step with the demands
of a rapidly evolving marketplace. Yet
some of these rules date back to the 1990s
and early 2000s, and one all the way to
1975, before the Internet revolutionized
American media consumption. Americans
today increasingly rely on online sources
for local news and information. Studies in
the record reinforce what most people old
enough to recall the days before WiFi and
iPads understand instinctively: the explosion of Internet sources has accompanied
the decline of reliance on traditional media.
The realities of operating a viable broadcasting enterprise today look little like
they did when the FCC enacted the current ownership rules. Despite all of this,
the FCC’s broadcast ownership rules remained largely static for fifteen years.
The FCC’s most recent review of its
ownership rules culminated in an order
that accounted for these changes. The
FCC evaluated the current market dynamics, concluded the existing rules built for a
pre-Internet marketplace no longer serve
the public interest, and repealed or modified the rules accordingly. The FCC
weighed the rules’ effects on competition,
localism, and diversity to determine what
changes would advance the public interest.
I join several parts of my colleagues’
decision, including their rejection of the
challenges to the incubator program’s
‘‘comparable markets’’ definition and the
Reconsideration Order’s retention of a

590

939 FEDERAL REPORTER, 3d SERIES

modified ‘‘top-four’’ restriction in the Local
TV Rule. But I do not share their conclusion that the Reconsideration Order and
Incubator Order are arbitrary and capricious. In my view, the FCC balanced competing policy goals and reasonably predicted the regulatory changes dictated by the
broadcast markets’ competitive dynamics
will be unlikely to harm ownership diversity. I would not delay the FCC’s actions. I
would allow the rules to take effect and
direct the FCC to evaluate their effects on
women- and minority-broadcast ownership
in its 2018 quadrennial review.

‘‘promot[e] competition among the mass
media’’ and to ‘‘maximiz[e] diversification
of services sources and viewpoints.’’ Id. at
784, 98 S.Ct. 2096 (internal quotation
marks and citation omitted). These in turn
would benefit the public through higher
quality programming and broader options.
The FCC determines the appropriate
amount of common ownership by weighing
the harms of excessive concentration—diminished programming diversity, stifled
competition, and the like—against the
competitive realities of running viable
broadcast enterprises.

I.

A need for regulatory reform became
palpable as the Internet emerged, transforming how Americans receive news and
entertainment. Rapid technological change
had left the framework regulating media
ownership ill-suited to the marketplace’s
needs. The public interest analysis at the
heart of the FCC’s ownership rules is as
dynamic as the media landscape. A static
set of ownership regulations could not
serve the public interest for all time. See
Prometheus I, 373 F.3d at 437 (Scirica,
C.J., dissenting in part and concurring in
part).

The parties are intimately familiar with
the FCC’s quadrennial review of the
broadcast ownership rules. See Prometheus Radio Project v. FCC, 824 F.3d 33
(3d Cir. 2016) (Prometheus III); Prometheus Radio Project v. FCC, 652 F.3d 431
(3d Cir. 2011) (Prometheus II); Prometheus Radio Project v. FCC, 373 F.3d 372
(3d Cir. 2004) (Prometheus I). I summarize
the relevant history and principles that
guide this process before briefly reviewing
the FCC’s most recent action.
A.
The orders at issue stem from the
FCC’s review of its broadcast ownership
rules. Through these rules the FCC advances its statutory mandate to regulate
broadcast media as ‘‘public convenience,
interest, or necessity requires.’’ 47 U.S.C.
§ 303; see Nat’l Broad. Co. v. United
States, 319 U.S. 190, 214, 63 S.Ct. 997, 87
L.Ed. 1344 (1943). Early versions of the
ownership rules cabined common ownership within and across broadcast media to
promote the public interest. See FCC v.
Nat’l Citizens Comm. for Broad., 436 U.S.
775, 780, 98 S.Ct. 2096, 56 L.Ed.2d 697
(1978) (NCCB). The FCC adopted broadcast ownership rules with the objective to

With continued change all but certain,
Congress retooled the approach to regulating affected markets. It enacted the Telecommunications Act of 1996, Pub. L. No.
104-104, 110 Stat. 56, which directs the
FCC to review the broadcast ownership
rules periodically. The relevant provision,
Section 202(h), instructs:
The Commission shall review TTT all of
its ownership rules [quadrennially] as
part of its regulatory reform review TTT
and shall determine whether any of [its]
rules are necessary in the public interest
as the result of competition. The Commission shall repeal or modify any regulation it determines to be no longer in
the public interest.

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

Telecommunications Act of 1996, § 202(h),
as amended by Pub. L. No. 108-199, § 629,
118 Stat. 3, 99–100 (2004). ‘‘[C]ompetition,
localism, and diversity’’ are the values that
guide the FCC’s ‘‘public interest’’ analysis
under Section 202(h). Prometheus I, 373
F.3d at 400; see also id. at 446 (Scirica,
C.J., dissenting in part and concurring in
part). The FCC considers five types of
diversity: viewpoint, outlet, program,
source, and minority and women ownership. See id. at 446 (Scirica, C.J. dissenting
in part and concurring in part) (summarizing the FCC’s analysis in its 2002 biennial
review order).
Embodied in Section 202(h) is the imperative that the broadcast ownership rules
stay in sync with the media marketplace.
See id. at 391. What is in the ‘‘public
interest’’ changes over time as the marketplace evolves, so the FCC must reassess
competitive conditions to set appropriate
regulations. The provision’s language and
the accompanying legislative history reveal
a belief that ‘‘opening all telecommunications markets to competition’’ will best suit
a marketplace comprised of diverse media
platforms and shaped by technological advancement. See H.R. Rep. No. 104-458, at
113 (1996) (Conf. Rep.). Section 202(h) directs the FCC to assess the harms of
consolidation and abandon restrictions that
deprive the public of competitive benefits
associated with some levels of common
ownership.1
B.
The FCC concluded its 2010/14 quadrennial review by largely retaining the rules
restricting common ownership. See Second
Report & Order, 2014 Quadrennial Regulatory Review, 31 FCC Rcd. 9864 (2016)
(2016 Report & Order). The rules, according to the FCC, ‘‘promote[d] competition
1.

Although framed in deregulatory terms, we
have understood the provision to allow modi-

591

and a diversity of viewpoints in local markets, thereby enriching local communities
through the promotion of distinct and antagonistic voices.’’ Id. ¶ 3.
On petitions for reconsideration, the
FCC repealed or loosened most of these
ownership rules. See Order on Reconsideration and Notice of Proposed Rulemaking,
32 FCC Rcd. 9802 (2017) (Reconsideration
Order). The thrust of the FCC’s analysis is
that technological innovation and fundamental changes to the media marketplace
have eroded many of the assumptions underlying the ownership rules. See, e.g., id.
¶¶ 1, 19, 22, 43, 60, 71–73. The rules have
thus ceased serving the public interest.
The Internet boom has ushered in rivals
that enjoy competitive advantages vis-à-vis
broadcasters. The ownership rules impede
broadcasters’ ability to engage in procompetitive transactions without offering compensating benefits to the public.
The FCC’s repeal of the Newspaper/Broadcast Cross-Ownership (NBCO)
Rule illustrates the Reconsideration Order’s public interest balancing. The NBCO
Rule barred combinations between broadcast stations and local newspapers to preserve ‘‘strong local voices.’’ Id. ¶ 9. When
the rule was adopted in 1975, daily print
newspapers constituted a predominant
voice in local news. The rule thus promoted viewpoint diversity and localism by ensuring independent sources of local content. But the FCC’s careful study and
informed judgment show this reasoning no
longer holds. Traditional media compete
with ‘‘digital-only news outlets with no
print or broadcast affiliation.’’ Id. ¶ 19. The
FCC determined that the burst of Internet
sources means local newspapers’ independence from broadcast is no longer essential to promote viewpoint diversity. See id.
fications making the rules ‘‘more or less stringent.’’ Prometheus I, 373 F.3d at 395.

592

939 FEDERAL REPORTER, 3d SERIES

¶¶ 18–22. The flipside of this growth is the
dwindling significance of print newspapers.
Repealing the NBCO Rule, the FCC determined, lifts a barrier to combinations
that may enhance localism. See id. ¶ 26.
Transactions between broadcasters and local newspapers could enable ‘‘collaboration
and cost-sharing’’ that improve program
quality. Id. ¶ 27. These efficiencies could
‘‘attract new investment in order to preserve and expand’’ local programming. Id.
¶ 42. The FCC predicted repeal of the
NBCO Rule ‘‘is unlikely to have a significant effect on minority and female ownership in’’ broadcast markets in part because
broadcasters would be better positioned to
acquire newspapers than the reverse. Id.
¶ 46. So ownership diversity, like competition and localism, did not justify keeping
the rule. See id. ¶ 48.
While the FCC’s public interest analysis
balances competition, localism, and diversity, the last consideration has attracted
most of the attention in this litigation.
Neither the 2016 Report & Order nor Reconsideration Order found evidence that
showed keeping or changing the rules
would affect ownership diversity. ‘‘[E]mpirical study of the relationship between
cross-ownership restrictions’’ and ownership diversity is complicated by ‘‘obstacles
that make such study impractical and unreliable,’’ the FCC observed, yet it invited
comment on both study design and the
likely connection. Quadrennial Regulatory
Review—Review of The Commission’s
Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of
the Telecommunications Act of 1996, et al.,
Further Notice of Proposed Rulemaking
and Report and Order, 29 FCC Rcd. 4371
¶ 198 n.595 (2014) (2014 FNPRM). The
2016 Report & Order rejected arguments
that making the rules more restrictive
‘‘will promote increased opportunities for
minority and female ownership’’ because
the record lacked evidence supporting

such a causal connection. ¶ 77 (Local TV
Rule); see id. ¶ 127 (Local Radio Rule).
The Reconsideration Order considered the
consequences of relaxing the rules on ownership diversity and determined the record
did not support arguments that minority
and women broadcasters would be harmed
by the changes. See, e.g., ¶ 15 (NBCO
Rule) (‘‘[W]e find that eliminating the rule
will have no material effect on minority
and female broadcast ownership.’’). No
commenter introduced evidence that contradicted the FCC’s prediction that changing the rules would unlikely affect ownership diversity. The Reconsideration Order
announced the FCC’s intention to pursue
an incubator program, to facilitate entry
and bolster ownership diversity. See
¶¶ 121–25.
II.
Citizen Petitioners contend the FCC’s
orders are arbitrary and capricious because they do not adequately analyze the
new rules’ likely effects on minority and
women broadcast ownership. The APA’s
‘‘arbitrary and capricious’’ standard together with Section 202(h) guide our review.
We must ‘‘hold unlawful and set aside
agency action, findings, and conclusions’’
that are ‘‘arbitrary [or] capricious.’’ 5
U.S.C. § 706(2)(A). Under this deferential
review, we uphold the FCC’s decision provided it ‘‘examine[d] the relevant data and
articulate[d] a satisfactory explanation for
its action including a ‘rational connection
between the facts found and the choice
made.’ ’’ Motor Vehicle Mfrs. Ass’n v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43,
103 S.Ct. 2856, 77 L.Ed.2d 443 (1983)
(quoting Burlington Truck Lines v. United States, 371 U.S. 156, 168, 83 S.Ct. 239, 9
L.Ed.2d 207 (1962)). Where, as here, the
FCC makes predictions about the likely

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

consequences of its decisions, ‘‘complete
factual support in the record for [its] judgment or prediction is not possible or required.’’ NCCB, 436 U.S. at 814, 98 S.Ct.
2096; Rural Cellular Ass’n v. FCC, 588
F.3d 1095, 1105 (D.C. Cir. 2009) (‘‘Where
TTT the FCC must make predictive judgments about the effects of [its regulations],
certainty is impossible.’’). These predictions are ‘‘less amenable to rigid proof’’;
they ‘‘are more in the nature of policy
decisions entitled to substantial deference.’’ NAACP v. FCC, 682 F.2d 993, 1001
(D.C. Cir. 1982), rev’d on other grounds,
FCC v. Fox Telev. Stations, Inc., 556 U.S.
502, 129 S.Ct. 1800, 173 L.Ed.2d 738
(2009).
As this Court has emphasized and notes
again here, Section 202(h) ‘‘also affects our
standard of review.’’ Prometheus III, 824
F.3d at 40; see Maj. Op. 577. To the extent
the meaning of Section 202(h) is disputed,
the question would ordinarily ‘‘implicat[e]
an agency’s construction of the statute
which it administers,’’ thus triggering ‘‘the
principles of deference described in’’ Chevron U.S.A. Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837, 842, 104
S.Ct. 2778, 81 L.Ed.2d 694 (1984). INS v.
Aguirre-Aguirre, 526 U.S. 415, 424, 119
S.Ct. 1439, 143 L.Ed.2d 590 (1999); see
also Sinclair Broad. Grp. v. FCC, 284 F.3d
148, 165 (D.C. Cir. 2002) (deferring to
FCC’s reasonable interpretation of another provision of the Telecommunications
Act of 1996 under Chevron).
III.
My colleagues find, ‘‘based on the evidence and reasoning the Commission has
given us,’’ it has not satisfied its obligation to show changes in the ownership
rules ‘‘will not harm ownership diversity.’’
Maj. Op. 587. But the FCC enjoys a
measure of deference when it balances
policy objectives based on predictions of

593

the consequences of its rules. This key
disagreement leads me to depart from my
colleagues in three respects. First, because the FCC’s consideration of the interplay between its ownership rules and
ownership diversity satisfies the APA and
Section 202(h), I would deny the challenges to the Reconsideration Order and
allow the new rules to take effect. Second,
I believe the substance of the FCC’s eligible entity definition and the process by
which it was adopted accords with the
APA. Third, I do not believe the FCC
acted arbitrarily or capriciously when it
adopted the Incubator Order. Accordingly, I would deny the petitions and allow
the FCC’s orders to take effect.
A.
Citizen Petitioners leave untouched the
FCC’s core determination that the ownership rules have ceased to serve the ‘‘public
interest.’’ The Reconsideration Order
chronicles significant changes throughout
media markets and explains why maintaining the rules no longer serves that public
interest goal. No party identifies any reason to question the FCC’s key competitive
findings and judgments. Citizen Petitioners argue instead that all the rule changes
that make up the Reconsideration Order
should be vacated because the FCC did
not adequately consider the new rules’
likely effects on women- and minoritybroadcast ownership. But neither Section
202(h) nor the APA requires the FCC to
quantify the future effects of its new rules
as a prerequisite to regulatory action. Congress prescribed an iterative process; the
FCC must take a fresh look at its rules
every four years. This process assumes the
FCC can gain experience with its policies
so it may assess how its rules function in
the marketplace. The FCC has sufficiently
explained its decision and deserves an opportunity to implement its policies.

594

939 FEDERAL REPORTER, 3d SERIES

Citizen Petitioners overlook ‘‘that the
Commission’s judgment regarding how the
public interest is best served is entitled to
substantial judicial deference.’’ FCC v.
WNCN Listeners Guild, 450 U.S. 582, 596,
101 S.Ct. 1266, 67 L.Ed.2d 521 (1981). The
FCC’s Section 202(h) review typifies agency policymaking entitled to deference, subject to the APA. Section 202(h) directs the
FCC to balance competing goals—competition, localism, and diversity—to guarantee that its ‘‘regulatory framework [keeps]
pace with the competitive changes in the
marketplace.’’ Prometheus I, 373 F.3d at
391. The FCC enjoys a ‘‘considerable
amount of discretion’’ when it weighs objectives to reach policy decisions. Rural
Cellular, 588 F.3d 1095, 1103 (D.C. Cir.
2009) (internal quotation marks and citation omitted). The record confirms the
FCC analyzed the relevant considerations
and properly exercised its discretion. See,
e.g., Reconsideration Order ¶ 63 (Radio/TV Cross-Ownership Rule) (concluding
the rule ‘‘no longer strikes an appropriate
balance between the protection of viewpoint diversity and the potential public
interest benefits that could result from the
efficiencies gained by common ownership
of radio and television stations in a local
market’’); see also id. ¶¶ 55–58 (rule no
longer contributes substantially to viewpoint diversity); id. ¶ 59 (rule is out of step
with ‘‘realities of the digital media marketplace’’); id. ¶ 62 (‘‘rule already permits
significant cross-ownership in local markets’’); id. ¶ 64 (‘‘no evidence that any
additional common ownership’’ resulting
from repeal ‘‘would disproportionately or
negatively impact minority- and femaleowned stations’’).
2.

To the extent my colleagues require the FCC
to conduct empirical analysis on remand, they
risk impermissibly adding requirements beyond the APA. See Perez v. Mortgage Bankers

Traditional principles of deference are
particularly apt here. Not every decision
the FCC makes is susceptible to precise
analysis; some ‘‘rest on judgment and prediction rather than pure factual determinations.’’ WNCN Listeners Guild, 450 U.S. at
594, 101 S.Ct. 1266. Predictions about the
future effects of rules not yet in being are
‘‘inherently speculative.’’ Council Tree
Inv’rs, Inc. v. FCC, 863 F.3d 237, 243 (3d
Cir. 2017) (Council Tree IV) (internal quotation marks omitted).
The FCC reasonably predicted on the
record before it that the new rules would
not diminish or harm minority and women
ownership. The question whether the rules
and ownership diversity are interconnected
was aired over the course of the 2010/14
quadrennial review. The FCC invited comment and data that might shed light on
this connection. See, e.g., 2014 FNPRM
¶ 222. It concluded—based on its understanding of the broadcast markets, the evidence in the record, and the only data
submitted—that repeal of the rules was
unlikely to harm ownership diversity. See,
e.g., Reconsideration Order ¶ 83 (Local TV
Rule) (‘‘In this lengthy proceeding, no party has presented contrary evidence or a
compelling argument demonstrating why
relaxing this rule will’’ harm ownership
diversity.); id. ¶ 69 (adopting revised rule
based on understanding of changed competitive dynamics); id. ¶ 71 (observing
changes in marketplace but noting ‘‘broadcast television stations still play a unique
and important role in their local communities’’); see also 2014 FNPRM ¶ 224 (Radio/TV Cross-Ownership Rule) (noting no
commenter has shown ‘‘low levels of [women and minority] ownership are a result of
existing radio/television cross-ownership
rule’’).2 The effect the new rules will have
Ass’n, ––– U.S. ––––, 135 S. Ct. 1199, 1207,
191 L.Ed.2d 186 (2015). They quote Stilwell v.
Office of Thrift Supervision’s instruction that
the ‘‘APA imposes no general obligation on

PROMETHEUS RADIO PROJECT v. FCC
Cite as 939 F.3d 567 (3rd Cir. 2019)

on women- and minority-broadcast ownership may remain difficult to uncover until
the FCC gains experience with the new
rules. See NCCB, 436 U.S. at 796–97, 98
S.Ct. 2096; Council Tree Inv’rs, Inc. v.
FCC, 619 F.3d 235, 252–53 (3d Cir. 2010).
Faced with such a question, ‘‘complete factual support in the record for the Commission’s judgment or prediction is not possible or required.’’ NCCB, 436 U.S. at 814,
98 S.Ct. 2096. Under these circumstances
settled principles of administrative law
counsel deference to the FCC’s prediction.3
Citizen Petitioners emphasize that the
FCC acted on faulty minority-ownership
data and no women-ownership data. See,
e.g., Citizen Petitioners’ Br. 26–30. This
data, which the FCC acknowledged as imperfect, measured minority ownership before and after two prior regulatory
changes—in 1996 and 1999. Such data
weaknesses are not fatal to the FCC’s
regulations—not only because, as noted,
data gaps are inherent to predictive regulation, but also because it is not certain the
data demanded would alter the FCC’s
analysis. First, Citizen Petitioners assume
that the experience of these earlier
changes will speak directly to the effects of
the Reconsideration Order. Even if the
FCC could obtain improved data on these
decades-old regulatory changes, that information offers only modest predictive value
for the consequences of the FCC’s current
agencies to produce empirical evidence.’’
Maj. Op. 587 (quoting 569 F.3d 514, 519
(D.C. Cir. 2009)). But they argue Stilwell is
distinguishable because there the agency relied on its ‘‘long experience’’ supervising the
industry and did not act on ‘‘faulty and insubstantial data’’ like the FCC did here. Id. Setting aside the FCC’s eight decades regulating
broadcast media, the basic principle that the
APA ‘‘imposes no general obligation on agencies to produce empirical evidence’’ applies
regardless of the quality of the data in the
record. Stilwell, 569 F.3d at 519; see Council
Tree IV, 863 F.3d at 244 (‘‘[W]e review only

595

rules regarding modernization. Second, as
noted the FCC considers five types of
diversity, not to mention competition and
localism. The FCC’s lack of some data
relevant to one of these considerations
should not outweigh its reasonable predictive judgments, particularly in the absence of any contrary information, such
that its entire policy update is held up.
The FCC must ‘‘repeal or modify’’ rules
that cease to serve the public interest even
when it lacks optimal data. Telecommunications Act of 1996, § 202(h). The FCC has
revised its Form 323 and conducted outreach programs to ease compliance with its
reporting requirements. 2016 Report & Order ¶ 265. These are encouraging measures that could make the FCC’s data more
reliable, benefiting future quadrennial reviews. The FCC intends to take up a variety of diversity-related proposals in its
2018 quadrennial review. See 2018 Quadrennial Regulatory Review—Review of
the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant
to Section 202 of the Telecommunications
Act of 1996, Notice of Proposed Rulemaking, 33 FCC Rcd. 12111 ¶¶ 93–121 (2018). I
would direct it to follow through on its
announcement as well as study the effects
of the latest rules on ownership diversity. I
would not, however, delay the Reconsideration Order based on the analytical shortcomings Citizen Petitioners emphasize.
for the use of relevant, not perfect, data.’’).
Were it otherwise, the principle would be
meaningless.
3.

This is true despite Citizen Petitioners’ criticism of the FCC’s methodology and data. Not
only does the FCC have policymaking discretion, subject to the APA it also has discretion
‘‘to proceed on the basis of imperfect scientific information, rather than to invest the resources to conduct the perfect study.’’ Cablevision Sys. Corp. v. FCC, 649 F.3d 695, 717
(D.C. Cir. 2011) (quoting Sierra Club v. EPA,
167 F.3d 658, 662 (D.C. Cir. 1999)).

596

939 FEDERAL REPORTER, 3d SERIES

In short, I believe the FCC has explained its decision. I would deny the petitions and allow the Reconsideration Order’s rule changes to take effect.
B.
My colleagues remand the 2016 Report
& Order’s eligible entity definition for the
FCC to ascertain what effect the revenuebased definition will have on women and
minority ownership. But the FCC adopted
the eligible entity definition to ‘‘serve the
public interest by promoting small business participation in the broadcast industry and potential entry by new entrepreneurs.’’ See 2016 Report & Order ¶ 279; see
id. ¶¶ 280–86. It thoroughly explained its
policy choice. The record indicated that the
revenue-based eligible entity definition will
promote the FCC’s ‘‘traditional policy objectives TTT by enhancing opportunities for
small business[es].’’ Id. ¶ 281. The FCC’s
brief experience with this definition confirmed ‘‘a significant number of broadcast
licensees and permittees availed themselves of policies based on the revenuebased eligible entity standard.’’ Id. ¶ 283
(observing widespread use of the policy
allowing certain eligible entities generous
construction permits). No commenters argued the revenue-based eligible entity definition does not serve the public interest
according to the FCC’s analysis. Id. ¶ 276.
This stands in contrast to the last time
the FCC employed this definition. During
its 2006 quadrennial review the FCC
adopted a revenue-based eligibility entity
definition to promote ownership diversity.
The approach failed because the FCC provided no support for why its definition
would ‘‘be effective in creating new opportunities for broadcast ownership by TTT
women and minorities.’’ Prometheus II,
652 F.3d at 470 (internal quotation marks
and citation omitted). The key distinction,
of course, is the FCC’s policy decision to

reorient its eligible entity definition. As
revised, it is intended to ‘‘encourage innovation and enhance viewpoint diversity’’ by
‘‘promoting small business participation in
the broadcast industry.’’ 2016 Report &
Order ¶ 235. Because the FCC pursued
the revenue-based definition in past efforts
to promote ownership diversity, it evidently believed the definition would not harm
ownership diversity. Nothing in the present record suggests otherwise. In my view
the FCC properly complied with its obligations under the APA.
C.
Under today’s outcome, I regret that the
FCC’s incubator program will not have an
opportunity to stand or fall on its own
merit. See Rules and Policies to Promote
New Entry and Ownership Diversity in
the Broadcasting Services, 33 FCC Rcd.
7911 (2018) (Incubator Order). Citizen Petitioners take issue with the program’s criteria for who is eligible to realize its benefits. The FCC adopted a two-prong eligible
entity definition: participants must be both
‘‘new entrants’’ based on the number of
stations owned and ‘‘small businesses’’
based on revenue. See id. ¶ 16. The FCC
designed these criteria ‘‘to encourage new
entry into’’ an ‘‘extremely capital-intensive’’ industry. Id. ¶ 18. The program’s
benefits will not exclusively accrue to minority and women broadcasters as the eligibility criteria sweep in all emerging radio
broadcasters. This breadth is consistent
with the incubator program’s stated goal.
Yet based on its review of data from incentive auctions, the FCC predicts that the
‘‘new entrant’’ prong will likely benefit
prospective women and minority applicants. Id. ¶¶ 21–24.
The incubator program is a reasonable
policy designed to ‘‘support the entry of
new and diverse voices into the broadcast
industry.’’ Id. ¶ 1. The FCC ‘‘has long

NATIONAL COLLEGIATE ATHLETIC v. GOVERNOR OF NJ
Cite as 939 F.3d 597 (3rd Cir. 2019)

contemplated the potential for’’ a program
that pairs emerging and experienced
broadcasters to ease entry into radio
broadcasting. Id. ¶ 2. The Incubator Order
established the first program to convert
these ideas into a concrete policy. See ¶ 3.
Before adopting the program, the FCC
considered alternative eligibility criteria
and invited ‘‘comment on how to determine
eligibility for participation in the incubator
program.’’ Id. ¶ 17; see id. ¶¶ 28–30 (declining to adopt competing proposals that
might prove ‘‘administratively inefficient,’’
and committing to ‘‘conduct outreach to
help encourage participation in the incubator program by mission-based entities and
Native American Nations’’ that are eligible). It then provided comprehensive reasoning to justify the path it chose. See id.
¶ 20 (‘‘The record reflects that individuals
seeking to purchase their first or second
broadcast station are the ones that often
face the most challenging financial hurdles.’’); id. ¶ 21 (citing incentive auction
data showing definition could modestly
benefit women and minorities); id. ¶ 22
(citing comments suggesting the same); id.
¶ 25 & n.53 (noting that revenue cap narrows band of eligible entities); id. ¶ 27
(‘‘Use of an objective standard has the
advantage of being straightforward and
transparent for potential applicants, as
well as administrable for the Commission
without application of significant additional
processing resources.’’). The FCC complied with the APA in determining its ‘‘eligible entity’’ definition. Its choice, in my
view, is an aspect of program design largely left to the agency’s policy discretion,
subject to the APA, Telecommunications
Act of 1996, and other relevant statutes.
The FCC’s order draws a rational line
between the record and decision made, and
I would allow the incubator program to
take effect.

597

IV.
For the reasons provided, I would deny
the petitions for review and allow the
FCC’s orders to take effect.

,

NATIONAL COLLEGIATE ATHLETIC
ASSOCIATION, an unincorporated
association; National Basketball Association, a joint venture; National
Football League, an unincorporated
association; National Hockey League,
an unincorporated association; Office
of the Commissioner of Baseball, an
unincorporated
association
doing
business as Major League Baseball
v.
GOVERNOR OF the State of NEW
JERSEY; David L. Rebuck, Director
of the New Jersey Division of Gaming
Enforcement and Assistant Attorney
General of the State of New Jersey;
*Judith A. Nason, Acting Executive
Director of the New Jersey Racing
Commission; New Jersey Thoroughbred Horsemen’s Association, Inc.;
New Jersey Sports & Exposition Authority Stephen M. Sweeney, President of the New Jersey Senate; *Craig
J. Coughlin, Speaker of the New Jersey Assembly (Intervenors in District
Court)
New Jersey Thoroughbred Horsemen’s
Association, Inc., Appellant

EXHIBIT B

Case: 18-3335

Document: 003113411693

Page: 1

Date Filed: 11/20/2019

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_________________

Nos. 17-1107, 17-1109, 17-1110, 17-1111
_________________
PROMETHEUS RADIO PROJECT
*National Association of Broadcasters
**Cox Media Group LLC,
Intervenors
v.
FEDERAL COMMUNICATIONS COMMISSION;
UNITED STATES OF AMERICA
Prometheus Radio Project and Media Mobilizing Project,
Petitioners in No. 17-1107
Multicultural Media, Telecom and Internet Counsel and
National Association of Black Owned Broadcasters, Inc.,
Petitioners in 17-1109
The Scranton Times, L.P.,
Petitioners in 17-1110
Bonneville International Corporation,
Petitioners in 17-111
* Prometheus Radio Project, Media Mobilizing Project,
Benton Foundation, Common Cause, Media Alliance,
Media Council Hawaii, National Association of Broadcasters
Employees and Technicians Communications Workers of
America, National Organization for Woman Foundation,
Office of Communication of the United Church of Christ Inc.,
Intervenors
*(Pursuant to the Clerk’s Order date 1/18/17)
** (Pursuant to the Clerk’s Order dated 2/7/17)
_________________

Case: 18-3335

Document: 003113411693

Page: 2

Date Filed: 11/20/2019

Nos. 18-1092, 18-1669, 18-1670, 18-1671, 18-2943 & 18-3335
_________________
PROMETHEUS RADIO PROJECT;
MEDIA MOBILIZING PROJECT,
Petitioners (No. 18-1092, 18-2943)
INDEPENDENT TELEVISION GROUP,
Petitioners (No. 18-1669)
MULTICULTURAL MEDIA, TELECOM AND INTERNET COUNCIL, INC.;
NATIONAL SSOCIATION OF BLACK-OWNED BROADCASTERS,
Petitioners (No. 18-1670, 18-3335)
FREE PRESS;
OFFICE OF COMMUNICATION, INC. OF THE UNITED CHURCH OF CHRIST;
NATIONAL ASSOCIATION OF BROADCAST EMPLOYEES AND
TECHNICIANS-COMMUNICATIONS WORKERS OF AMERICA;
COMMON CAUSE,
Petitioners (No. 18-1671)
v.
FEDERAL COMMUNICATIONS COMMISSION;
UNITED STATES OF AMERICA
_________________
On Petition for Review of An Order of
the Federal Communications Commission
(FCC Nos. FCC-1: FCC-16-107; FCC-17-156; FCC-18-114)
_________________

Before: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, PHIPPS, SCIRICA* and FUENTES* Circuit Judges
* Senior

Judges Scirica and Fuentes are limited to panel rehearing only.

2

Case: 18-3335

Document: 003113411693

Page: 3

Date Filed: 11/20/2019

SUR PETITION FOR REHEARING
The petitions for rehearing filed by Respondents and Intervenors in support of
Respondents in the above-entitled cases having been submitted to the judges who
participated in the decision of this Court and to all the other available circuit judges of the
circuit in regular active service, and no judge who concurred in the decision having asked
for rehearing and a majority of the judges of the circuit in regular service not having
voted for rehearing, the petitions for rehearing by the panel and the Court en banc are
denied.
By the Court,
s/ Thomas L. Ambro, Circuit Judge
Dated: November 20, 2019
MB/arr/cc: All Counsel of Record

3

